<html>
<title> - AIR TRAFFIC CONTROL FACILITY STAFFING</title>
<body><pre>[House Hearing, 110 Congress]
[From the U.S. Government Printing Office]



 
                 AIR TRAFFIC CONTROL FACILITY STAFFING

=======================================================================


                               (110-138)

                                HEARING

                               BEFORE THE

                            SUBCOMMITTEE ON
                                AVIATION

                                 OF THE

                              COMMITTEE ON
                   TRANSPORTATION AND INFRASTRUCTURE
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED TENTH CONGRESS

                             SECOND SESSION

                               __________

                             JUNE 11, 2008

                               __________


                       Printed for the use of the
             Committee on Transportation and Infrastructure




                  U.S. GOVERNMENT PRINTING OFFICE
42-947                    WASHINGTON : 2009
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing
Office  Internet: bookstore.gov Phone: toll free (866) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 20402-0001



             COMMITTEE ON TRANSPORTATION AND INFRASTRUCTURE

                 JAMES L. OBERSTAR, Minnesota, Chairman

NICK J. RAHALL, II, West Virginia,   JOHN L. MICA, Florida
Vice Chair                           DON YOUNG, Alaska
PETER A. DeFAZIO, Oregon             THOMAS E. PETRI, Wisconsin
JERRY F. COSTELLO, Illinois          HOWARD COBLE, North Carolina
ELEANOR HOLMES NORTON, District of   JOHN J. DUNCAN, Jr., Tennessee
Columbia                             WAYNE T. GILCHREST, Maryland
JERROLD NADLER, New York             VERNON J. EHLERS, Michigan
CORRINE BROWN, Florida               STEVEN C. LaTOURETTE, Ohio
BOB FILNER, California               FRANK A. LoBIONDO, New Jersey
EDDIE BERNICE JOHNSON, Texas         JERRY MORAN, Kansas
GENE TAYLOR, Mississippi             GARY G. MILLER, California
ELIJAH E. CUMMINGS, Maryland         ROBIN HAYES, North Carolina
ELLEN O. TAUSCHER, California        HENRY E. BROWN, Jr., South 
LEONARD L. BOSWELL, Iowa             Carolina
TIM HOLDEN, Pennsylvania             TIMOTHY V. JOHNSON, Illinois
BRIAN BAIRD, Washington              TODD RUSSELL PLATTS, Pennsylvania
RICK LARSEN, Washington              SAM GRAVES, Missouri
MICHAEL E. CAPUANO, Massachusetts    BILL SHUSTER, Pennsylvania
TIMOTHY H. BISHOP, New York          JOHN BOOZMAN, Arkansas
MICHAEL H. MICHAUD, Maine            SHELLEY MOORE CAPITO, West 
BRIAN HIGGINS, New York              Virginia
RUSS CARNAHAN, Missouri              JIM GERLACH, Pennsylvania
JOHN T. SALAZAR, Colorado            MARIO DIAZ-BALART, Florida
GRACE F. NAPOLITANO, California      CHARLES W. DENT, Pennsylvania
DANIEL LIPINSKI, Illinois            TED POE, Texas
NICK LAMPSON, Texas                  DAVID G. REICHERT, Washington
ZACHARY T. SPACE, Ohio               CONNIE MACK, Florida
MAZIE K. HIRONO, Hawaii              JOHN R. `RANDY' KUHL, Jr., New 
BRUCE L. BRALEY, Iowa                York
JASON ALTMIRE, Pennsylvania          LYNN A WESTMORELAND, Georgia
TIMOTHY J. WALZ, Minnesota           CHARLES W. BOUSTANY, Jr., 
HEATH SHULER, North Carolina         Louisiana
MICHAEL A. ACURI, New York           JEAN SCHMIDT, Ohio
HARRY E. MITCHELL, Arizona           CANDICE S. MILLER, Michigan
CHRISTOPHER P. CARNEY, Pennsylvania  THELMA D. DRAKE, Virginia
JOHN J. HALL, New York               MARY FALLIN, Oklahoma
STEVE KAGEN, Wisconsin               VERN BUCHANAN, Florida
STEVE COHEN, Tennessee               ROBERT E. LATTA, Ohio
JERRY McNERNEY, California
LAURA A. RICHARDSON, California
ALBIO SIRES, New Jersey
VACANCY

                                  (ii)



                        Subcommittee on Aviation

                 JERRY F. COSTELLO, Illinois, Chairman

BOB FILNER, California               THOMAS E. PETRI, Wisconsin
LEONARD L. BOSWELL, Iowa             HOWARD COBLE, North Carolina
RICK LARSEN, Washington              JOHN J. DUNCAN, Jr., Tennessee
RUSS CARNAHAN, Missouri              VERNON J. EHLERS, Michigan
JOHN T. SALAZAR, Colorado            STEVEN C. LaTOURETTE, Ohio
DANIEL LIPINSKI, Illinois            FRANK A. LoBIONDO, New Jersey
NICK LAMPSON, Texas                  JERRY MORAN, Kansas
ZACHARY T. SPACE, Ohio               ROBIN HAYES, North Carolina
BRUCE L. BRALEY, Iowa                SAM GRAVES, Missouri
HARRY E. MITCHELL, Arizona           JOHN BOOZMAN, Arkansas
JOHN J. HALL, New York, Vice Chair   SHELLEY MOORE CAPITO, West 
STEVE KAGEN, Wisconsin               Virginia
STEVE COHEN, Tennessee               JIM GERLACH, Pennsylvania
NICK J. RAHALL, II, West Virginia    MARIO DIAZ-BALART, Florida
PETER A. DeFAZIO, Oregon             CHARLES W. DENT, Pennsylvania
ELEANOR HOLMES NORTON, District of   TED POE, Texas
Columbia                             DAVID G. REICHERT, Washington
CORRINE BROWN, Florida               CONNIE MACK, Florida
EDDIE BERNICE JOHNSON, Texas         JOHN R. `RANDY' KUHL, Jr., New 
ELLEN O. TAUSCHER, California        York
TIM HOLDEN, Pennsylvania             LYNN A WESTMORELAND, Georgia
MICHAEL E. CAPUANO, Massachusetts    MARY FALLIN, Oklahoma
MAZIE K. HIRONO, Hawaii              VERN BUCHANAN, Florida
LAURA A. RICHARDSON, California      JOHN L. MICA, Florida
VACANCY                                (Ex Officio)
JAMES L. OBERSTAR, Minnesota
  (Ex Officio)

                                 (iii)

                                CONTENTS

                                                                   Page

Summary of Subject Matter........................................    vi

                               TESTIMONY

Conley, David, Vice President, FAA Managers Association, Inc.....     4
Dillingham, Gerald, Director, Physical Infrastructure Issues, 
  U.S. Government Accountability Office..........................     4
Forrey, Patrick, President, Air Traffic Controllers Association..     4
Krakowski, Hank, Chief Operating Officer, Air Traffic 
  Organization, Federal Aviation Administration..................     4
Scovel, III, Hon. Calvin L., Inspector General, U.S. Department 
  of Transportation..............................................     4

          PREPARED STATEMENTS SUBMITTED BY MEMBERS OF CONGRESS

Carnahan, Hon. Russ, of Missouri.................................    50
Cohen, Hon. Steve, of Tennessee..................................    52
Costello, Hon. Jerry F., of Illinois.............................    53
Johnson, Hon. Eddie Bernice, of Texas............................    59
Mitchell, Hon. Harry E., of Arizona..............................    63
Oberstar, Hon. James L., of Minnesota............................    65
Poe, Hon. Ted, of Texas..........................................    67
Salazar, Hon. John T., of Colorado...............................    73

               PREPARED STATEMENTS SUBMITTED BY WITNESSES

Conley, David S..................................................    76
Dillingham, Gerald L.............................................    88
Forrey, Patrick..................................................   107
Krakowski, Hank..................................................   128
Scovel, III, Hon. Calvin L.......................................   154

                       SUBMISSIONS FOR THE RECORD

Krakowski, Hank, Chief Operating Officer, Air Traffic 
  Organization, Federal Aviation Administration:

  Response to request from Rep. Richardson.......................    17
  Response to request from Rep. Richardson.......................    19
  Response to request from Rep. Richardson.......................    21
  Response to questions from Rep. Costello.......................   139
  Response to questions from Rep. Kuhl, Jr.......................   142
  Response to questions from Rep. Mica...........................   146
  Response to questions from Rep. Richardson.....................   150

                        ADDITIONS TO THE RECORD

Don Chapman, Federal Aviation Administration, Professional 
  Controller, written statement..................................   175
Melvin S. Davis, Southern California TRACON, Facility 
  Representative and Certified Professional Controller, written 
  statement......................................................   178
Steven A. Wallace, Federal Aviation Administration, Certified 
  Professional Controller, written statement.....................   184

[GRAPHIC] [TIFF OMITTED] 42947.001

[GRAPHIC] [TIFF OMITTED] 42947.002

[GRAPHIC] [TIFF OMITTED] 42947.003

[GRAPHIC] [TIFF OMITTED] 42947.004

[GRAPHIC] [TIFF OMITTED] 42947.005

[GRAPHIC] [TIFF OMITTED] 42947.006

[GRAPHIC] [TIFF OMITTED] 42947.007

[GRAPHIC] [TIFF OMITTED] 42947.008

[GRAPHIC] [TIFF OMITTED] 42947.009



            HEARING ON AIR TRAFFIC CONTROL FACILITY STAFFING

                              ----------                              


                        Wednesday, June 11, 2008

                  House of Representatives,
    Committee on Transportation and Infrastructure,
                                  Subcommittee on Aviation,
                                                    Washington, DC.
    The Subcommittee met, pursuant to call, at 3:17 p.m., in 
Room 2167, Rayburn House Office Building, Hon. Jerry F. 
Costello [Chairman of the Subcommittee] presiding.
    Mr. Costello. The Subcommittee will come to order. 
Obviously everyone knows now that we have been on the floor 
voting since about 1:30 and hopefully we will not be 
interrupted, but there are no guarantees on this end. You never 
know when we will get a vote. But we appreciate your patience.
    The Chair will ask all Members and staff at this time to 
turn their electronic devices off or on vibrate.
    The Subcommittee is meeting today to hear testimony on air 
traffic control facility staffing. I will summarize my opening 
statement, call on Mr. Petri to give an opening statement or 
his remarks, and then we will introduce our first panel of 
witnesses and under the 5-minute rule ask them to offer their 
testimony, and I am sure will have questions as well.
    I welcome everybody today on the Subcommittee hearing on 
air traffic control facility staffing. The public relies on our 
air traffic controllers every day to make sure runways operate 
safely, flight patterns are checked, systematic takeoffs and 
arrivals occur and, most importantly, that airplanes maintain 
separation. They do these activities 130,000 times every day, 
making air traffic the safest form of transportation in the 
United States.
    However, we are facing a serious problem, some believe a 
crisis, in the controller workforce. Because of the PATCO 
strike and subsequent firing of air traffic controllers in 
1981, most of the air traffic controllers that we have today in 
the workforce were hired in the mid-1980s. As a result, most 
are eligible to retire and it is very clear, at least to me, 
that the FAA was not and is not ready to deal with the 
situation. As early as 2002, the Government Accountability 
Office warned of a controller retirement crisis.
    Further exasperating the problem has been the FAA's 
imposition of a contract on the air traffic controllers. 
According to NATCA, the National Air Traffic Controllers Union, 
since the workforce rules were imposed on controllers, 
retirement and attrition numbers have increased. Fatigue and 
operational errors are at an all-time high and morale is very 
low.
    Already in fiscal year 2008 the FAA has lost 954 
experienced controllers, almost 5 controllers per day. 
According to NATCA, since the beginning of fiscal year 2007, 
40,000 years of experience has been lost. This situation has 
some serious efficiency and safety consequences. Around the 
country, because of staffing shortages and misalignment between 
experienced personnel and new hires, more experienced 
controllers are being asked to work longer hours to handle 
increasingly congested runways and airspace.
    Fatigue is becoming an issue that must be addressed and is 
creating risk to the operational efficiency and safety of the 
air traffic control system. A good example is the rate of 
runway incursions. So far this year we have had 16 type A and B 
incursions. I believe controller fatigue and scheduling are 
factors in these incursions and they must be addressed.
    Though the FAA prides itself in reducing the time it takes 
to train a controller, there are many facilities where 
controllers are not receiving their training in a timely 
manner. I am concerned that unless this problem is dealt with, 
there will be an increase in the attrition rate of new hires, 
making a bad situation even worse. The numbers the FAA uses in 
the Controller Workforce Plans, the CWP, can be deceiving. 
While the CWP is accurate that the number of controllers has 
increased since 2004, the FAA does not differentiate between a 
certified controller and one still in training. This is a 
critical piece of information that must be reported to all 
stakeholders. According to the Department of Transportation 
Inspector General, the number of controllers in training has 
increased by 62 percent while the number of certified 
controllers has decreased by 11 percent.
    The FAA's controller workforce is dramatically changing and 
it needs to acknowledge that and work with stakeholders and 
Congress to keep up with our air transportation system and make 
sure that it is running safely and efficiently.
    With that, I welcome our witnesses here today and before I 
recognize Mr. Petri for his opening statement or comments, I 
would ask unanimous consent to allow 2 weeks for all Members to 
revise and extend their remarks and to permit the submission of 
additional statements and materials by Members and witnesses. 
Without objection, so ordered.
    And at this time the Chair recognizes Mr. Petri.
    Mr. Petri. Thank you very much, Mr. Chairman. This is an 
important and timely hearing to discuss air traffic control 
facility staffing. The controller retirement bubble we have 
been discussing for years is beginning to burst.
    As we are all aware, following the PATCO strike in '81 a 
large number of controllers were fired and an equally large 
number were hired. In the early '80s the FAA hired over 12,000 
controllers. During that time 80 percent of the Nation's air 
traffic controllers were developmental controllers in training. 
Today 25 percent of the Nation's controllers are developmental 
controllers. Now, not surprisingly, over 25 years later, the 
controllers hired in the '80s are approaching or reaching 
retirement age. As they retire others begin their careers.
    Over the last several years FAA has pursued an aggressive 
recruitment and hiring plan. In 2007, the FAA hired some 1,800 
controllers and it plans to hire nearly 1,900 more in 2008. 
Ultimately the FAA plans to have 16,371 controllers on board by 
2017. As this wave of retirements was anticipated, we would 
have been better off if this hiring had begun sooner to allow 
more transition time. While the FAA has had little trouble 
recruiting new controllers, the large number of developmental 
controllers is creating new challenges.
    The FAA must ensure that air traffic control facilities are 
properly staffed and that controllers receive all required 
training. Of particular concern to me is how the FAA will 
ensure the appropriate ratio of certified controllers to 
developmental controllers at each air traffic control facility. 
I realize that this involves a balancing act. However, the FAA 
needs to remain vigilant and keep it a priority.
    We also must be mindful that the needs of the air traffic 
control system are changing. With the transition to NextGen, 
the role of controllers is going to change. During the 
transition to NextGen the FAA must work closely with 
controllers to develop the best training and operational 
processes for the new air traffic management system. Likewise, 
it will be vital that we update our facilities and ensure that 
they are staffed appropriately.
    Finally, I would like to reiterate that everyone would be 
well served if the controllers union and FAA management can 
settle their outstanding labor issues. I understand that FAA 
sent NATCA a new settlement offer in the last day or so, and as 
I have done many times before, I would like to again encourage 
the parties to seriously pursue settlement discussions.
    Mr. Chairman, thank you for holding this important hearing. 
I look forward to our witnesses, and I yield back the balance 
of my time, and I think Mr. Poe has a statement if you take 
them.
    Mr. Costello. The Chair thanks the Ranking Member and would 
ask because of the delay in beginning the hearing if Members 
would consider submitting their opening statements for the 
record so that we could proceed to our witnesses. Is there any 
objection to that? If not, then the Chair appreciates your 
consideration and will now recognize the first panel of two 
today that we will be hearing from. Our first panel, I will 
introduce all of our witnesses: Mr. Hank Krakowski, who is the 
Chief Operating Officer of the Air Traffic Control Organization 
at the FAA; the Honorable Calvin Scovel, who is the Inspector 
General of the U.S. Department of Transportation; Dr. Gerald 
Dillingham is the Director of the Physical Infrastructure 
Issues at the U.S. Government Accountability Office; Mr. 
Patrick Forrey, who is the President of the National Air 
Traffic Controllers Association; and Mr. David Conley, who is 
the Vice President of the FAA Managers Association.
    Gentlemen, we welcome you before the Subcommittee. Again we 
apologize for the late start of the Subcommittee hearing. But 
we are anxious to hear your testimony and we would ask you to 
summarize your testimony in 5 minutes which will allow Members 
the opportunity to ask questions. We of course will receive 
your testimony and ask questions of the first panel before we 
move on to the second panel.
    With that, Mr. Krakowski you are recognized under the 5-
minute rule.

   TESTIMONY OF HANK KRAKOWSKI, CHIEF OPERATING OFFICER, AIR 
TRAFFIC ORGANIZATION, FEDERAL AVIATION ADMINISTRATION; THE HON. 
 CALVIN L. SCOVEL, III, INSPECTOR GENERAL, U.S. DEPARTMENT OF 
   TRANSPORTATION; DR. GERALD DILLINGHAM, DIRECTOR, PHYSICAL 
 INFRASTRUCTURE ISSUES, U.S. GOVERNMENT ACCOUNTABILITY OFFICE; 
PATRICK FORREY, PRESIDENT, AIR TRAFFIC CONTROLLERS ASSOCIATION; 
  AND DAVID CONLEY, VICE PRESIDENT, FAA MANAGERS ASSOCIATION, 
                              INC.

    Mr. Krakowski. Okay and I intend to be brief.
    Chairman Costello, Congressman Petri, and Members of the 
Subcommittee, it is an honor to be before you today to talk 
about air traffic controller staffing. I joined the FAA after a 
long career in safety and operations, and I came to FAA to 
focus on safety, efficiency, and to work to improve the labor 
relations atmosphere. The American people deserve nothing less.
    Aviation has experienced a decade of turbulence: the events 
of 9/11, airline failures and bankruptcies, with unspeakable 
trauma on the private sector employees that work for those 
companies. Delays in soaring fuel prices are before us now. Yet 
over the last decade the safety of aviation in the United 
States continues to improve. We are now the best in the world. 
The employees of the FAA produced this record, the controllers, 
technicians, managers, scientists, inspectors, and staff all 
working together as a team.
    Serious runway incursions have been brought down by focused 
efforts in the past year. Significant operational errors are 
level but still above our targets by about one per day, and we 
do need to work harder on that. Yet the flying public does 
remain safe because a combination of training, teamwork and 
technology continues to provide the safety net when human error 
does occur.
    We will shortly be rolling out our first efforts to improve 
the safety culture within the ATO with NATCA in the Midwest, 
with our Air Traffic Safety Action Program. Both NATCA 
President Forrey and I are committed to make this work, and I 
thank him for his unwavering leadership in this critical safety 
initiative.
    Next week, FAA will be convening its first ever Fatigue 
Safety Summit, bringing together worldwide leaders in the 
science of understanding fatigue and human factors. Airlines, 
manufacturers, and the FAA will be represented as well with 
strong support from the National Transportation Safety Board. 
New techniques of science and scheduling technology will be 
presented and evaluated, and our hope is that there will be 
actionable strategies which can be understood and implemented 
for the 24 by 7 nature of the ATO workforce.
    It has taken a few years to smooth out our hiring and 
training efforts, but today we are solidly on target with our 
hiring plan. Better hiring processes and training are yielding 
greater stability to the plan in the efforts we have underway. 
This year we plan to hire 2,000 controllers here in 2008 and 
right now we have 7,500 candidates for those opportunities. We 
will carefully watch the mix of new controllers with the 
established controllers as they enter the workforce. We are 
deploying 24 high fidelity tower simulators, which have already 
demonstrated a 25 to 50 percent reduction in training time.
    In response to the Inspector General, we are also 
establishing a new Vice President of Technical Training to 
ensure that the national focus of our training efforts is 
understood and well managed. We have used retention incentives 
to retain retirement-eligible controllers, and we have hired 
seasonal controllers to work as instructors through our 
contract training program.
    Finally, the FAA is working diligently to craft solutions 
to our ongoing labor dispute. I will hold my management team 
accountable for being part of that solution as we operate the 
system with fiscal responsibility while setting our employees 
up for success. Leadership from labor will also be required to 
achieve that aspiration. We have an opportunity to do this, but 
it will demand focus and leadership from both sides.
    There is something unique about aviation professionals. 
While labor and management have inherent conflicts, 
professionalism always prevails. When people are working 
traffic, flying airplanes, or doing their jobs, their work 
continues to be stellar. As they continue to serve the 
traveling public with distinction this translates into a 
reliable and a safe system. We have many issues to address from 
refreshing the workforce to the transition to NextGen 
modernization. These efforts are too important to be attenuated 
by a continuing atmosphere of contentious labor relations.
    Mr. Chairman, Mr. Petri, and Members of the Committee, the 
dedicated employees of the Air Traffic Organization are proud 
to be providing a critical service to the American people. To 
enhance this mission we need to continue to find ways to work 
better together to keep our skies as safe as possible, and I 
very much look forward to working with the Committee as we 
proceed. Thank you.
    Mr. Costello. The Chair thanks you Mr. Krakowski and now 
recognizes the Inspector General Mr. Scovel.
    Mr. Scovel. Chairman Costello, Ranking Member Petri, and 
Members of the Subcommittee, we appreciate the opportunity to 
testify today regarding key issues facing FAA's controller 
workforce. FAA plans to hire and train nearly 17,000 new 
controllers to offset retirements over the next decade. 
Ensuring enough certified controllers at FAA's more than 300 
air traffic control facilities will remain a significant watch 
item for this Subcommittee.
    Since 2005, 3,300 controllers have left the workforce, 23 
percent higher than FAA had projected. However, since 2005 FAA 
has hired 3,450 new controllers, 25 percent more than 
projected. FAA now faces a fundamental transformation in the 
composition of its controller workforce. New controllers 
represent 25 percent of the workforce, up from 15 percent in 
2004.
    Addressing controller attrition will be FAA's major 
challenge for at least the next 10 years, and the agency must 
focus its efforts on three key areas: First, FAA must improve 
controller facility training. Last week we issued our report on 
FAA's Controller Facility Training Program, our second review 
of this program since 2004. FAA is taking actions at the 
national level to get this important program on track. For 
example, FAA is increasing the use of simulators and contractor 
training support. However, the program continues to be 
extremely decentralized and the efficiency and quality of the 
training vary from location to location.
    We have identified several actions to improve this 
important program. First, FAA must establish realistic 
standards for the number of developmental controllers that 
facilities can accommodate. FAA plans to increase the number of 
developmental controllers to over 30 percent of the total 
workforce, which would be the highest percentage of 
developmentals in 15 years. FAA estimates that the total 
controller workforce at each facility can include up to 35 
percent developmentals. As of April 2008, 67 facilities 
nationwide, 21 percent of all FAA air traffic control 
facilities, already exceeded that level which could 
significantly increase training times because the number of 
developmental controllers would surpass training capacity. 
Given the various sizes and complexities of FAA's 300 
facilities, FAA needs to identify by facility how many 
developmentals each facility can realistically accommodate. 
Next FAA must clarify responsibility for oversight and 
direction of the facility training program at the national 
level. Facility training is shared between four different ATO 
Vice Presidents. As a result of these overlapping 
responsibilities, we found significant confusion at the 
facility level over exactly who is in charge. In its statement 
today, FAA announced that it has created a new senior position 
responsible for training, a much-needed step.
    Second, FAA must address controller human factors. 
Addressing controller human factors such as fatigue and 
situational awareness is important for maintaining safe 
operations of the NAS. In its investigation of Comair Flight 
5191, NTSB expressed concern that the lone controller on duty 
at the time of the accident had only slept about 2 hours before 
his shift. Training new controllers on human factor issues as 
well as technical aspects of air traffic control, such as 
airspace, phraseology, and procedures, will become increasingly 
important as FAA begins to address the large influx of new 
controllers.
    In April 2003, we reported that almost 90 percent of 
controller operational errors were due to human factor issues 
rather than procedural or equipment deficiencies. In May 2007, 
we again reported that FAA needed to focus on controller human 
factors and training in order to reduce the risk of runway 
incursions caused by controllers. At the time FAA had done 
little in this area. Since last year, however, FAA has made 
progress in addressing human factor training initiatives.
    Third, FAA must ensure consistency and accuracy in 
reporting and addressing controller operational errors. As FAA 
transitions to a new and relatively inexperienced controller 
workforce, it must investigate, mitigate and accurately report 
operational errors. In 2004, we reported that FAA relied on an 
inaccurate self-reporting system to track operational errors. 
Only 20 of FAA's more than 300 air traffic control facilities 
had an automated system to identify operational errors. In 
response, FAA is developing an automated system, Traffic 
Analysis and Review Program, to identify when operational 
errors occur at TRACON facilities. FAA started deploying this 
system in fiscal year 2008 with an estimated completion date at 
all locations by the end of calendar year 2009. FAA must ensure 
that these programs are used to enhance safety and must protect 
a new voluntary disclosure program, the Air Traffic Safety 
Action Program, from potential misuse.
    Our work on a similar program which grants immunity to 
airline employees who report safety problems found that safety 
information was either inaccessible or not used to resolve the 
cause of the reported safety issue. FAA must ensure that 
similar issues do not occur with ATSAP.
    That concludes my statement, Mr. Chairman. I would be happy 
to address your questions and those of the Subcommittee.
    Mr. Costello. Thank you, Mr. Scovel. And the Chair now 
recognizes Dr. Dillingham.
    Mr. Dillingham. Thank you, Chairman Costello, Mr. Petri, 
Members of the Subcommittee. My testimony this afternoon 
focuses on three air traffic controller workforce issues: 
First, the status of workforce attrition and hiring; second, 
facility staffing and its implications for the operation and 
safety of the Nation's air traffic control system; and, third, 
controller training for current ATC operations and NextGen.
    With regard to attrition and hiring our analysis shows that 
experienced controllers are retiring faster than expected. For 
example, the proportion of controllers that are retiring within 
2 years of becoming eligible has increased about from 33 
percent in 2005 to 42 percent in 2007. Although we have not 
seen a comprehensive analysis of the reasons for the increased 
attrition, we do know that only a very small minority of it is 
because of mandatory retirement age. For example, in 2007 of 
the more than 1,600 attritions, only 17 were mandatory 
retirements. This pattern continues into early 2008.
    To address this attrition and increase its pool of 
candidates, FAA has undertaken several initiatives. As a 
result, FAA met retiring goals in 2006, 2007, and is on target 
for meeting its 2008 goals.
    With regard to my second issue, facility staffing, there 
are two key parts, the number of staff at a facility and the 
ratio of developmental controllers to fully certified 
controllers. In terms of staff numbers, we found that in May of 
2008, 145 of 314 facilities were overstaffed and 12 were 
understaffed when compared with FAA staffing standards. 
According to FAA, it is deliberately overstaffing facilities 
with new hires so they will be trained and ready to replace 
retiring controllers over the next few years. Although we have 
some concerns about overstaffing as a concept, we think it 
makes sense. However, we are more concerned about the potential 
implications of understaffing for the safety and efficiency of 
the ATC system.
    The major implication of understaffing is greater use of 
overtime, which can lead to fatigue. We have previously 
reported that controllers at some of the Nation's busiest 
airports are working 6 days a week because of staffing 
shortages. To its credit FAA is addressing this issue by 
establishing a group of stakeholders to work on solutions for 
this problem and offering incentives of up to $25,000 for 
controllers to relocate to understaffed facilities.
    NTSB has also recommended that FAA take steps to mitigate 
air traffic controller fatigue, including working with NATCA to 
revise controller work scheduling policies. However, we are 
concerned because NATCA and FAA disagree on the level of 
cooperation that is taking place between them on these issues.
    Regarding the ratio of developmental controllers to CPCs, 
historically trainees have accounted for less than 35 percent 
of the controller workforce. But because of the increase in 
retirements and hiring, these proportions are in flux. An 
imbalance between developmental and CPCs within facilities 
could have some potentially serious implications, including 
increased overtime, reduced system efficiency, and extended 
training time for developmental controllers. FAA is working to 
develop target ranges for facilities in light of these current 
circumstances. We think this is a positive development.
    Training, my last issue, according to FAA, it has reduced 
the time it takes to train controllers by about a year. 
Controller training took from 3 to 4 years in 2005. It took 2 
to 3 years in 2007. We caution that it may not be prudent for 
FAA to base estimates of its future capacity for developing 
CPCs on these early results, which may not be sustainable over 
time.
    Mr. Chairman and Members of the Subcommittee, we have 
identified two additional training concerns that call for FAA's 
immediate attention. First, the attrition rate for 
developmental controllers has increased from 6 percent in 2006 
to 9 percent in 2007 and is expected to rise to 14 percent in 
2008. The IG's work suggested that even these figures may be 
low. This increase has serious budgetary implications since 
each time a trainee is lost, the government's investment to 
date is also lost.
    A second training concern is related to NextGen. NextGen is 
a new paradigm that requires a new approach to training, 
including a focus on human factors and automation. Our work has 
shown that if human factors are not considered early in the 
development of systems, there will be delays in implementation 
and substantial cost increases. We are concerned that FAA has 
not obtained the expertise needed to conduct human factors 
research necessary for NextGen training, has not prioritized 
the needed research, and has not identified a funding source 
for it.
    We also emphasize the importance of including controllers 
and other key stakeholders in developmental activities 
associated with NextGen training since they will be 
participants in NextGen.
    Thank you, Mr. Chairman.
    Mr. Costello. The Chair thanks you, Dr. Dillingham, and now 
recognizes Mr. Forrey.
    Mr. Forrey. Chairman Costello, Ranking Member Petri, and 
distinguished Members of the Subcommittee, my written testimony 
should be before you. In the interest of time I will try to 
summarize and keep my remarks short and answer any questions 
you may have.
    Let me begin by thanking you. Mr. Chairman, for your 
understanding and attention and commitment to the air traffic 
controller staffing levels and for holding this important 
hearing. Under your leadership the House passed a comprehensive 
bill to address the many issues facing the National Airspace 
System, including controller retention and staffing levels, 
which is the subject of today's hearing. The men and women of 
the National Air Traffic Controllers Association hope that the 
Senate will follow suit and reconsider the FAA Reauthorization 
and Modernization Act that unfortunately fell victim to 
jurisdictional and procedural bickering last month.
    With the current authorization set to expire June 30 and 
with unmatched controller attrition rates approaching five per 
day, it has never been more imperative to address this issue 
than it is today. The National Airspace System is currently is 
experiencing an unprecedented and unsustainable loss of air 
traffic controllers, and those that have followed this issue 
know that NATCA attributes the current retirement wave to.
    Before I get into that portion of my testimony, I want to 
tell the Subcommittee that the men and women I represent are 
among the most dedicated and professional employees found in 
government. Every day I am reminded that their first commitment 
has always been and continues to be the safe operation of our 
National Airspace System. The safety of the flying public will 
always be the priority of the union and of all the safety-
relocated professionals that work for the FAA. I worry that 
sometimes this fact may get lost on the Members of the 
Subcommittee because of the focus of our labor dispute with the 
agency.
    Let me be clear. This country is facing an air traffic 
control staffing crisis. The crisis is real, the crisis is 
serious, and the crisis is now. Those losses are leading to 
insufficient staffing levels across the country, requiring more 
use of overtime and leading to increased fatigue. All of this 
adds up to a burned out workforce and an unacceptable 
compromise to safety.
    The FAA touts that they are hiring enough trainees to make 
up for the retiring of veterans and they are certifying faster 
than before. However, between fiscal 2005 and the end of fiscal 
2007, of the 3,450 trainees still employed by the FAA because 
many have left, only 538 have achieved full certification. That 
is fewer than 16 percent. Of the 525 hired this year and still 
employed in the first 6 months of fiscal 2008, only 4 have 
fully certified.
    Before the imposition of the work rules which the FAA 
continues to mislabel as a contract, the agency told Congress 
and the Subcommittee that there would not be a mass exodus of 
air traffic controllers. Unfortunately, the FAA was wrong. In 
June of 2006, the FAA predicted that 950 controllers would 
leave the workforce in fiscal 2007. The actual attrition 
numbers of controllers leaving in 2007 was 1,622, 70 percent 
higher than the agency's prediction. And halfway through fiscal 
2008, we are down another 960 controllers and trainees, on a 
pace to break last year's staggering losses.
    The FAA failed to plan for the retirement wave by hiring 13 
controllers in 2004. They exacerbated that wave by prematurely 
cutting off contract negotiations in 2006 and causing an 
attrition tsunami that has seen nearly 2,700 controllers leave 
since they implemented that system. It is not by coincidence 
that delays, near misses, and runway incursions have all 
increased as the number of controllers has diminished.
    In facilities across the country, most notably in our 
busiest towers, centers and TRACONs, controllers are spending 
more time on position and work more airplanes with fewer 
certified controllers since 1992, resulting in a dangerously 
fatigued workforce.
    Aviation delays have increased since the work rules were 
imposed in 2006, and in our estimate this is no coincidence. 
Fiscal year 2007 saw the number of delayed aircraft increase by 
more than 20,000 over the previous year, far outpacing the .2 
percent increase in operations. Last month the Joint Economic 
Committee released a report that found that flight delays cost 
the U.S. economy an astounding $41 billion last year, while 
travelers lost a jaw-dropping 21 million hours in wasted time. 
Similarly, a recent association study by the Travel Industry 
Association determined that passengers concerned with delays 
have led them to bypass air travel altogether, costing the 
economy on additional $26 billion.
    The FAA's response has been to unilaterally implement other 
misguided policies that work only to ensure that adequate 
staffing level targets continue to be missed. The FAA's 
insistence on moving on with controversial consolidations, 
decombinations, and other realignments of facilities and 
service requires more, not less controllers, cost more per 
operation and results in more operation errors when compared to 
other split facilities.
    The agency also continues to sell NextGen as a cure-all for 
all aviation woes, from congestion to safety to efficient fuel 
use and even controller staffing. But I remind the Members of 
the Subcommittee that NextGen is at least 2 decades away. 
Before we hang our hat on a still conceptual program to take 
aviation to the next generation, let us fix the problems of the 
NowGen air traffic control system. And rather than taking a 
blind leap of faith, NATCA makes the following recommendations 
to help build a solid foundation that will safely bridge the 
gap between NowGen and NextGen.
    First, the FAA and NATCA must return to the bargaining 
table to complete contract negotiations. Doing so will help to 
retain the veteran controllers that are leaving the system at 
unsustainable record levels. These veteran controllers are 
responsible for on-the-job training that turns a trainee into a 
certified controller and their retention is essential to 
maintaining safe operations of the system.
    Second, the FAA must work with NATCA and the National 
Academy of Sciences or another independent third party to not 
only reestablish scientifically based staffing ranges for each 
facility, but also to establish concrete limits on training 
ratios at the facility level. These ratios, along with the 
current trainee to certified professional controller ratio 
breakdown of the workforce by a facility, must be published in 
the FAA's annual workforce plan.
    Third, standardized training must continue to be the 
foundation for the development of skilled and capable air 
traffic controllers. The FAA must stop issuing blanket waivers 
on training to chronically understaffed facilities.
    And finally, in order to avoid such a crisis in the future, 
the FAA must work collaterally and cooperatively with NATCA on 
all issues affecting air traffic controllers or their 
operations.
    Thank you, Mr. Chairman, and I am ready to answer questions 
when you want them.
    Mr. Costello. The Chair thanks you, Mr. Forrey, and now 
recognizes Mr. Conley.
    Mr. Conley. Chairman Costello, Ranking Member Petri, and 
Members of the Subcommittee, I thank you for the opportunity to 
testify before you today. I am the Vice President of the FAA 
Managers Association. I am here on annual leave, and my 
comments do not represent the FAA.
    The FAA Managers Association's mission is to promote 
excellence in public service and, in particular, represent the 
managers who ensure aviation safety and efficiency. Among those 
we represent are the front line managers who train and oversee 
the Nation's air traffic controllers. It is critical that you 
know that to become a front line manager, each of our air 
traffic front line managers must have first served successfully 
as an air traffic controller.
    I would like to focus my comments on three areas. First, I 
would like to address new controllers; second, the need to 
increase the minimum number of supervisors within the FAA; and, 
third, our association's views on how the system is 
functioning.
    It is undeniable that there is a need for additional 
controllers. However, it must be noted that with the hiring of 
new controllers, management and oversight is critical. Proper 
supervision is essential to a safe aviation system, and we 
believe that the best person to provide that oversight is a 
trained and dedicated front line manager.
    I have been hearing from managers across the United States 
that the new recruits are eager and enthusiastic. They are up 
for the challenge of an accelerated and rigorous training 
program. The main difficulty we foresee is that the abundance 
of training will cause a backlog of simulation time as they 
compete with other forms of recurrent or remedial training. 
Although there are naturally some exceptions, we have every 
reason to be optimistic about the new batch of air traffic 
controller recruits. Lack of front line managers' oversight 
during training is a very big problem. Once training has been 
completed, oversight of these newly certified controllers is 
essential.
    I was hired by the FAA in 1983, assigned to Little Rock 
Tower and TRACON and completed training at the tower at the age 
of 19. So I can identify with the newer controllers. The 
difference between then and now is that in 1981 through 1983 we 
had approximately 2,600 front line managers and fully staffed 
training departments. Today these numbers have been diminished 
by hundreds. Unfortunately, we have walked into the situation 
with eyes wide open.
    It has come to our attention that there are some currently 
in the workforce disparaging our new hires. We believe these 
stories to be an unfortunate mischaracterization of our new 
recruits. The enthusiasm of today's new recruits has enhanced 
the overall morale at a number of facilities. We appreciate 
their dedication and welcome them to the team. These new 
recruits have brought passion and a youthful energy back into a 
workforce that has been plagued by contractual disagreements 
and low morale. Our organization is very concerned that a lack 
of sufficient oversight and mentoring could lead them towards a 
path of failure.
    Essentially it is about providing support for the 
controllers. This is true whether a facility is fully staffed 
or severely understaffed. The oversight requirement is still 
the same, oversight is essential.
    As an association, increasing the number of air traffic 
front line managers has been and still remains our number one 
priority in pending FAA reauthorization legislation. The FAA's 
statistics show that there is clearly a link in the air traffic 
environment between the levels of supervision and safety. 
According to our research, the minimum number of front line 
managers needed to effectively supervise our air traffic 
control system is 2,060. We arrived at this number by 
conducting a facility-by-facility audit based on our collective 
experience of what the appropriate level should be.
    The FAA Managers Association has held firmly that the 
number of front line managers should not be based on a ratio to 
the number of controllers. FAA has long used ratios, but ratios 
clearly do not make sense. The job of a front line manager is 
not characterized by how many people they supervise. We believe 
that a rigidly fixed ratio system fails to recognize the 
operational significance of the supervisors' duties. These men 
and women are not office managers. They are operational 
managers leading in the day-to-day delivery of safety and 
efficiency services to our customers.
    In a snapshot, we are currently understaffed. We see 
upcoming retirements in our ranks. Our employment pool of 
qualified applicants is diminishing with their own retirements 
and those we are charging with supervising our new. Managing 
oversight is more critical now than ever before.
    Finally, the air traffic control system is the safest and 
most efficient system in the world. Our goal is not only to 
keep it that way, but also to make it better. We have some 
stress points that present some management challenges, but we 
believe that together we can meet the challenges of both today 
and tomorrow.
    I would like to again thank this Committee for inviting me 
to testify, and I am available for your questions.
    Mr. Costello. The Chair thanks you, Mr. Conley, and I will 
ask a few questions and ask Mr. Petri and then get to the other 
Members. I know that we have several Members here who have 
questions as well.
    Mr. Krakowski, you are the guy here speaking for the FAA 
today, and realizing that you have been in your position, I 
guess, since October or November of last year and weren't 
around to make these projections as to the number of 
controllers that would retire in 2006, 2007, and 2007, one, you 
heard in my opening statement, and you and I have talked about 
my concerns over the number of controllers that are retiring, 
the experienced controllers who are leaving at a much higher 
rate than the FAA anticipated or projected, the difference 
between the number of certified controllers versus the 
noncertified or those new hires that are in training, and of 
course the runway incursions that have taken place, 16 in I 
think the first quarter or first half of this year. I think 
there is a correlation between everything that is going on 
here.
    Do you share the same concern, not only the fact that there 
are more experienced controllers leaving, that there are fewer 
certified controllers on the job than the FAA anticipated, the 
fact that there are controllers who are working overtime? We 
heard the case in Washington where the controller was worked 8 
hours, off 8 hours, had to come back 8 hours later and had 
about 2 hours sleep. While the unfortunate accident was not 
controller error, it was discovered that he only had 2 hours 
sleep in a 24-hour period.
    So those are genuine legitimate concerns that I think 
everyone has, and I just wonder are they concerns that you 
share as well.
    Mr. Krakowski. Mr. Chairman, actually, for clarity let me 
answer the runway incursion piece first because----
    Mr. Costello. Can you move the microphone a little closer. 
Thank you.
    Mr. Krakowski. Yes, sir. Of those 16 runway incursions, 
only six were operational errors by controllers. None that we 
know of had any fatigue aspects to them. The other eight were 
pilot deviations into a vehicle or pedestrian deviations on the 
surface of the airport. And in a couple of those cases, the 
controllers actually were really on the ball to prevent 
something from getting worse in those situations.
    Mr. Costello. You probably saw the article in USA Today 
concerning pilot fatigue as well.
    Mr. Krakowski. Yes. Let's start there because I have been 
an airplane pilot for nearly 35 years. And since the early 
1920s, in this business, fatigue has always been present, not 
just for controllers, but pilots, flight attendants, mechanics. 
I think there is something unique happening next week. Next 
week, the FAA will start their first ever global symposium on 
fatigue for all aviation workers, all those categories I just 
talked to.
    When I was at my previous employer, we actually talked to 
people, who are leading scientific technologies, who have 
developed techniques and software to allow companies to 
actually predict fatigue, look at what the cycle is, look at 
the recovery time after long duty days. This will all be 
discussed at this fatigue seminar.
    NTSB, it is one of their big recommendations, they are 
going to be there in force, and this is the first time that we 
have had the entire aviation community really looking at how do 
we handle this from a data-driven, scientific point of view, 
which I think is the right approach.
    Mr. Costello. I am aware of that and I compliment the FAA, 
and I think that has been urged by both the IG and the GAO as 
well. So it is a step in the right direction and hopefully we 
will learn some things as a result.
    The number of controllers that are retiring, five per day, 
the most experienced controllers, that obviously is more than 
the agency anticipated. There probably are several reasons why, 
but in your opinion why is this happening? Why are so many 
experienced--and you heard Dr. Dillingham, his testimony, that 
only a handful of these controllers retired because of 
mandatory retirement. They chose to retire, and why is that?
    Mr. Krakowski. First of all, I would like to update you on 
the numbers that we see today because I think that is 
instructive. We have missed our projections over the past 
couple of years by around 125 per year, 125 controllers more 
retired than we were planning. This year, we are at 10 over 
right now. We are planning at this point in time for a run rate 
of about 17 over. Eight hundred and nine retirees is what we 
were planning. The reasons for it, Mr. Chairman, some are 
clearly personal decisions, but I won't deny that the labor 
atmosphere may have something to do with it.
    Mr. Costello. You would agree that--I mean everyone that 
has testified before this Subcommittee in the last year or so 
has acknowledged there is a problem with morale within the 
controller workforce and the relationship between the FAA and 
the controllers.
    Mr. Krakowski. That is one of the reasons I took the job, 
sir, is that I came from a background of a lot of experience 
with a lot of different labor unions in good times and bad 
times. We are trying to move it along a little bit. There is a 
little bit of thawing. The ATSAP program I think is a 
demonstration of that. It will be our first key test whether 
this workforce can work together between management and labor 
to handle those issues.
    Mr. Costello. Since I have limited time and we have other 
Members that want to ask questions, I was out at the academy 
and I think it was in November, and it was interesting to me. 
It struck me that in talking to and looking at new recruits and 
trainees, that they were enrolled in the academy and taking 
training, the lack of experienced people coming into the 
profession as opposed to a time when many controllers who were 
entering the workforce had military experience or past 
experience. And is there a reason why that is happening, why we 
do not have the number of experienced controllers coming from 
the military side, retiring or leaving the military and coming 
into the FAA as a controller?
    Mr. Krakowski. The bulk of our hires last year did come 
either out of the military or what we call our CTI schools, 
which I know you are familiar with.
    Mr. Costello. When you say coming out of the military, I 
spoke with some of your recruits and trainees that came out of 
the military but they were not controllers. They were in other 
positions within the military. I am speaking past experienced 
controllers in the military. Are you saying that most of your 
trainees had prior experience as a controller in the military?
    Mr. Krakowski. No. No. These are military people that are 
clearly good----
    Mr. Costello. Big difference.
    Mr. Krakowski. I don't deny that. But now we are actually 
running out of that pool of candidates as we do hiring for 
2008. Most of the new hires, the 7,500 candidates I spoke to, 
will be people coming from the general population.
    Mr. Costello. I have other questions for other members of 
the panel, but I have taken more time than I should have and I 
will now recognize Mr. Petri for his questions.
    Mr. Petri. Thank you.
    First, I would like to ask Mr. Krakowski kind of a 
parochial question in a sense. In February, the Milwaukee air 
traffic control took over control from the Chicago Center of 
the Ripon airspace in central Wisconsin. Could you give us an 
update on how that transition has been going? There has been 
concern expressed by a number of people who have had 4 months 
of experience. And also could you discuss what preparations are 
needed or being planned for the EAA AirVenture this summer? It 
was sort of an annual but unique experience for the area and 
for the system? Concerns have been expressed to me about 
whether the controllers are ready or adequately trained for 
challenges they may face due to the increased traffic from this 
particular event.
    Mr. Krakowski. Thank you, Mr. Petri. The Milwaukee airspace 
transition went as planned, quite smoothly in our opinion. It 
appears to be working well from everything that I have been 
able to determine. There have been some frequency problems, 
radio frequency problems, which actually were in existence 
prior to the transition, which we are working on. But the 
general read is it is going well. I am also getting good 
information relative to the Oshkosh event, which I always go 
to, being an aircraft owner myself, and I am being assured that 
the controllers that will be working on it will be adequately 
trained and ready for that event. I think one of the aspects of 
Oshkosh this year, which will be interesting, is with the 
increased cost fuel and insurance, we are receiving a dramatic, 
and I mean a dramatic, reduction in general aviation flying 
right now. So I am not quite sure what that means for Oshkosh.
    Mr. Petri. Thank you. And also I referred in my opening 
statement to this, that there have been on again, off again 
negotiations to attempt to resolve the impasse that exists, and 
I wonder if you could tell me whether you in fact do currently 
have a new or revised settlement offer on the table and what it 
entails.
    Mr. Krakowski. Mr. Petri, I wouldn't characterize them as 
negotiations. There have been some settlement offers and 
concepts moving back and forth over the past few months. We 
refreshed one here this week which was presented to NATCA 
yesterday.
    Mr. Petri. Mr. Forrey, if you have any comments.
    Mr. Forrey. Sure. I think first of all Mr. Krakowski is 
well underinformed about what is going on in Milwaukee. Let me 
tell you what is really going on in Milwaukee. They have 
terrible automation problems with the creation of the Ripon 
airspace. Their hand-offs are going to wrong sectors, going to 
wrong airports. By the way, all this documentation is 
documented at the facility level. They do have the statistics 
on this. The Ripon sector, those sectors, that airspace was 
designed to help the O'Hare modernization process. It is two 
sectors, a high and a low. They do not have enough staffing to 
decombine the position. So, therefore, they are now having to 
work that as one sector, working twice the capacity of traffic 
trying to go through there, and it is not working well at all.
    They have--this month as far as overtime, they have 
scheduled 129 hours of 8-hour shifts, the controllers, to work 
this airspace. Sixty times they have used 10-hour days. So 
controllers have had to work sixty times 10-hour-long days. The 
month of July they have already scheduled 134 shifts of 
overtime. Several controllers there out of the last 30 weeks 
have worked 26 weeks 6-day weeks. Trainees are being assigned 
overtime for flight data. Flight data is processing flight plan 
information and stuff like that for the controllers. They 
currently have 37 certified professional controllers there. One 
is medical disqualified and will retire this year. One has been 
selected for the supervisor's job, which, by the way, are 100 
percent staffed across the country, unlike the controller 
workforce. They have one mandatory retirement for this year for 
eligible by the year 2009. They currently have nine trainees. 
One of them probably will check out this year and certify 
fully, two possibly at the end of next year.
    So if that sounds like a rosy picture to you, I want to 
drink what you are drinking. That sounds like a serious problem 
going on in Milwaukee. As far as Oshkosh is concerned, they are 
going to have more trouble with that kind of low staffing 
numbers. They don't have enough people to open up those 
positions they just gave that airspace to. I don't see that as 
a big--that is not going rosy, and that is just indicative of 
what is going on across the country.
    Mr. Petri. Thank you.
    Mr. Costello. Mr. Forrey, let me clarify so I understand 
what you just said before I go on. Repeat that. You said that 
what percentage of the controllers work 26 weeks, 6-day weeks?
    Mr. Forrey. I didn't say a percentage, sir. They told me--I 
asked if that was indicative of what is going on in the 
facility for everybody and the reply back was yes. So I would 
say the majority of controllers have been working 6-day 
workweeks since January when that airspace went over. I don't 
have the number, but I certainly can find out for you what the 
percentage is.
    Mr. Costello. Thank you. The Chair now recognizes the 
gentlewoman from California, Ms. Richardson.
    Ms. Richardson. Thank you, Mr. Chairman. First, let me 
start off with a comment. According to our notes here, the FAA, 
while hiring significant numbers, as you stated, sir, of new 
controllers, in terms of training, though that has really only 
taken place for the last 2 years significantly, most of these 
employees are still classified as developmental, and the data 
tells us that these are at alarming numbers. When I go to my 
next set of notes more specific to--we talked about today that 
the rate you feel is appropriate is 35. However, there are 
several locations where it is well over that number. And 
according to our notes here, the DOT IG recommends that the FAA 
convene a working group to identify on a case-by-case basis the 
appropriate level of developmental controllers that should be 
assigned to each facility. Has that happened?
    Mr. Krakowski. Yes. The working group has been established, 
and they have had a couple of meetings already. Moreover, one 
of the reasons I am establishing a Vice President of Technical 
Training is to put some real high-level executive focus on just 
these very types of issues.
    Ms. Richardson. Excuse me, sir. I am a young freshman here 
and I have got 3 minutes and 47 seconds. So I have got to cut 
to the chase because my Chairman here is going to cut me off. 
My question is has the group informed and have you developed 
appropriate levels on a case-by-case basis for each facility? 
Yes or no?
    Mr. Krakowski. We don't have the end product out there. The 
working group is working on that.
    Ms. Richardson. Okay. Thank you. So when can we expect that 
to be done?
    Mr. Krakowski. I will give you an update and send it to 
your office.
    Ms. Richardson. To the whole Committee because I am sure 
they are all concerned.
    Mr. Krakowski. You bet.
    [Information follows:]
    [GRAPHIC] [TIFF OMITTED] 42947.010
    
    Ms. Richardson. My next key point that I wanted to go over 
affects my area personally. Pre-2006 the controller contract 
pay levels have had no financial incentives to move to a new, 
more complicated and more demanding facility. Under the pay 
scales of the new contract, many of the controllers would 
actually have to take a reduction in pay to move to a new 
facility. There is a concern that this structural imbalance is 
creating a shortage of seasoned personnel at high-level 
demanding facilities.
    So my question is how many folks have actually been offered 
jobs at LAX and have turned them down? Do you know.
    Mr. Krakowski. I will have to get that information for you 
specifically. I would like to say, however, that the FAA did 
recognize that issue, and we began offering relocation bonuses 
to the seasoned controllers. Right now we have had two rounds 
of those into key facilities like southern California TRACON, 
O'Hare, Dallas. We have had nearly 100 people accept those 
moves. We are into round three and four of those. So it looks 
like we have a tool that is starting to move people into the 
right locations.
    [Information follows:]
    [GRAPHIC] [TIFF OMITTED] 42947.011
    
    Ms. Richardson. How long do you intend upon continuing that 
program?
    Mr. Krakowski. As the workforce changes and as people 
retire and the makeup of the facility changes, I think this is 
going to be an ongoing process to get the right people in the 
right place. It is the right way to approach it.
    Ms. Richardson. Okay. And then my last question is in 
September of 2004, the FAA determined in writing that safety 
required management to staff two more swing shifts per day. Why 
has the agency even with the average of 2.6 overtime shifts per 
day at LAX failed every day this year to staff the swing shifts 
at LAX with the required numbers?
    Mr. Krakowski. We staff to traffic and when--that 
determination was made in 2004 you say?
    Ms. Richardson. The FAA determined in 2004, September.
    Mr. Krakowski. I am not sure what assumptions were made 
relative to that in 2004. What I would like to offer is let me 
take a look at that, take a look at our current staffing and 
how we are staffing to traffic and try to make some sense of 
that for you.
    Ms. Richardson. And we expect it in writing back to this 
Committee because, as I said, it is my understanding that at an 
average of 2.6 overtime shifts per day, you fail to meet that 
every single day is what my understanding is.
    Mr. Krakowski. We will get that information for you.
    [Information follows:]
    [GRAPHIC] [TIFF OMITTED] 42947.012
    
    Ms. Richardson. Thank you, Mr. Chairman, with a minute to 
spare.
    Mr. Costello. With a minute to spare. We will keep that in 
mind the next time you go over. The Chair thanks the 
gentlewoman and now recognizes the gentleman from Texas, Mr. 
Poe.
    Mr. POE. Thank you, Mr. Chairman.
    I thank all of you for being here today. There is no doubt 
that operational errors, that is when controllers allow 
airplanes to get too close together, and operational 
deviations, and that is when controllers allow airplanes to 
enter another controller's airspace without permission, are all 
on the rise nationally. At the Houston TRACON at George Bush 
Intercontinental near my district in Houston, errors are up 
over 2,000 percent from last year, deviations are up over 900 
percent, while staffing is down and overtime is up.
    As a matter of fact, the FAA added to Houston TRACON's 
workload when they decided to transfer the Beaumont airspace to 
Houston back in April without providing extra staffing. For 2 
years I have been discussing this with the FAA and have 
considered other people in the area and we all have said that 
this was going to occur. The FAA predicted there would be no 
staffing shortages, but in truth there are staffing shortages 
at the Houston TRACON.
    To me there is a clear nexus between the staffing 
shortages, overtime usage, operational errors, and deviations. 
And the FAA allows staffing levels at facilities across the 
country like Houston TRACON to plummet while even at this 
hearing saying things are going to be better. It seems to me 
that the FAA on predictions on staff are like predictions by 
the weather folks. Weather people are the only ones I know that 
can consistently be wrong and keep their jobs, and to me it 
seems like that is what is occurring with the FAA in their 
predictions.
    Mr. Poe. As long as I have been on this Committee, the FAA 
says things are getting better, we have a hearing, we find out 
things are getting worse.
    I want to know when staffing shortages are going to stop 
and actually staffing will increase. And when is overtime, 
especially mandatory overtime, going to stop and overtime will 
be reduced? Can you tell me when that is going to occur?
    Mr. Krakowski. We are staffing up each year for the next 10 
years. And, each year, we are adding more controllers. And we 
actually expect to have more people onboard year after year 
after year. So we are actually growing the controller 
workforce. As we do that, we expect the staffing situation to 
get measurably better.
    Now, we acknowledge----
    Mr. Poe. What does "measurably better" mean?
    Mr. Krakowski. Well, so you have less----
    Mr. Poe. We have air traffic controllers retiring because 
they are working 6 days a week, they are working mandatory 
overtime. So when are things going to really get better?
    Mr. Krakowski. When we get the new workforce up and running 
and trained, Congressman. We are pedaling as fast as we can.
    One of the reasons I think we are a bit behind is the 
technology of training. I am used to flight simulators. From 
where I come from, that is how we train pilots. We are 
deploying 24 of those in the next 2 years, 12 this year and 12 
next year. We are already seeing 25 to 50 percent reductions in 
training times from these high-fidelity devices.
    So our ability to hire the workforce is not really an 
issue. We have 7,500 people competing for 2,000 positions this 
year. What I am really trying to focus on is how do we train 
them faster so they can become, full CPCs faster.
    Mr. Poe. Aren't you concerned about safety by cutting 
training time down by 1 year?
    Mr. Krakowski. Actually, what we found out in the airline 
industry is, because of the use of simulators, we were able to 
reduce the footprint, which, actually, the students liked as 
well. So they can get out there and do their job faster and 
they are better trained. These are fantastic devices, and I 
would like to----
    Mr. Poe. Would you agree that morale is worse?
    Mr. Krakowski. Morale is a challenge. I will not disagree 
with--
    Mr. Poe. Do you agree that morale is worse, or is it 
better?
    Mr. Krakowski. Well, since I am new here, I am not sure the 
what the reference point is. But it is----
    Mr. Poe. You have been there since November. Is it getting 
better or worse since November? Morale of air traffic 
controllers, people who work in the system.
    Mr. Krakowski. It doesn't feel to me like it has changed 
measurably since I have been on the job.
    Mr. Poe. I want to ask Mr. Forrey some questions.
    You have heard the answers. Why is morale--well, first of 
all, is it get better or getting worse?
    Mr. Forrey. I think it is getting worse. And that is why--
--
    Mr. Poe. Why?
    Mr. Forrey. Well, because people are being treated with 
very much disrespect. They are working a lot more time on 
position than they used to in the past.
    Mr. Poe. Why are you working more time if you are getting 
more personnel?
    Mr. Forrey. Because the personnel we are getting are 
trainees. They are not certified to work traffic.
    Mr. Poe. All right. That explains it.
    Mr. Forrey. And if you have to train someone, you are 
thinking for two people. You are thinking for yourself, and you 
are thinking for the person that is sitting in front of you, in 
front of the scope.
    I would like to address that issue about the simulator 
training. It is wonderful stuff, but it works for about 25 
percent of our workforce, because we are talking about tower 
simulators. 75 percent of our workforce is in a radar 
environment. We have had simulators since I am came in the 
agency 24 years ago.
    So to tout this simulator stuff, that it is going to 
increase training, yeah, it will probably for the towers.
    Mr. Poe. Excuse me for interrupting, but I am down to a few 
seconds.
    Mr. Forrey. Sure.
    Mr. Poe. Why are air traffic controllers retiring at a 
record rate? Give me the first reason.
    Mr. Forrey. Because they have no labor contracts.
    Mr. Poe. All right.
    Thank you, Mr. Chairman.
    Mr. Costello. I thank the gentleman.
    And, you know, I think it is worth noting, to follow up on 
Mr. Poe's questions--and, again, it is before Mr. Krakowski's 
time, but the GAO issued a report in 2002 and said that you may 
be facing a retirement crisis in 2002.
    The Chair now recognizes the gentlelady from Hawaii, Ms. 
Hirono.
    Ms. Hirono. Thank you very much.
    I am intrigued by the number of retirements that are not 
due to requirements to retire. And, Mr. Forrey, you have said 
that it is because they don't have a contract.
    Now, at the same time that FAA is trying to bring in new 
hires and it takes time to train them, what are you doing to 
keep the ones that you already have, presumably who are already 
trained, so that they don't retire when they don't have to?
    There are hundreds of them in that category. I would think 
that you would want to keep your trained people.
    What are you doing, Mr. Krakowski? Can you respond to that?
    Mr. Krakowski. Sure. So one of the things that we are doing 
is we have retention bonuses for our key facilities right now, 
which create monetary rewards for people who are retirement-
eligible not to retire. We have about 50 of those that have 
been accepted. We just started that program recently.
    Clearly, as I spoke to in my opening remarks, we would like 
to get the labor issues settled down and moving more 
productively as a team going forward. Pat and I are trying to 
figure out how we can work together better on some of the 
projects. And I think because of the history of the labor 
dispute that has been here for the past couple years, it is 
going to take a little time to thaw this out, but I can assure 
you I am going to work as hard as I can toward it.
    Ms. Hirono. Probably the best way to resolve that labor 
situation is to go back into negotiations. Do you all have any 
intentions of doing that?
    Mr. Krakowski. Well, as I said, we have forwarded a 
settlement offer to NATCA this week, and we are awaiting a 
response when they evaluate it.
    Ms. Hirono. Mr. Forrey, would you like to respond to Mr. 
Krakowski's statement?
    Mr. Forrey. Yes, thank you, ma'am. Apart from the fact that 
those discussions were confidential, which the agency has a 
problem keeping things confidential, the proposal that the FAA 
gave is nothing more than what they did last time or just a 
little bit extra. We will consider it, and we will take a look 
at it, and we will respond. But I think a couple things need to 
be made here.
    You know, here is a perfect example of an FAA that wants to 
work with us. The IG puts in a report and says you should work 
with NATCA, managers, with first-line supervisors to come up 
with ratios for training, yada, yada, yada. They concurred. 
NATCA hasn't been told anything about it. And they already 
started that work group back on June 1st. So we have never been 
contacted. You would think you talk to the people that are 
actually doing the training and the people that are actually 
working, that you would want to get their perspective on how to 
do this.
    That is indicative of what the FAA has been doing for the 
last 2, 3 years. It is their way or the highway. And guess 
where they are going? The 2,200 controllers that can leave 
today are going to go for the highway. And I don't care how 
many new people you bring in, the system is going to grind to a 
halt. And it is just a matter of time.
    Ms. Hirono. Well, we have already had a number of hearings 
on the whole labor question. And it keeps coming up. And I am 
just waiting for some kind of breakthrough here, where the two 
sides, the management and the workers, can truly work together 
to come to a meeting of the minds. Because that is not how your 
so-called contract was arrived at right now. So we are going to 
continue to have, I think, these kinds of hearings. And it 
seems as though the fundamental issue here really is the 
willingness on both sides to sit down at the table.
    So right now I am hearing that you have made another offer, 
and that doesn't seem to do the job. So that is just an 
expression of frustration on my part, that I am hoping for the 
time that you are able to sit down and get to what I think is a 
fundamental reason that these various problems are occurring 
with all your people retiring by the droves no matter what 
bonuses you put in there.
    Thank you, Mr. Chairman.
    Mr. Costello. The Chair thanks you and now recognizes the 
gentleman from North Carolina, Mr. Hayes.
    Mr. Hayes. Thank you, Mr. Chairman.
    I am not quite sure how to do this. I have been to this 
hearing before. Having been here 10 years, it is deja vu all 
over again.
    Mr. Scovel and Dr. Dillingham, I want you all to put on the 
striped shirts and carry the whistle here. You have guys on 
both sides of you that are again guilty of verbal overkill. If 
I could ask you all to declare a truce and get right down to 
the heart of the matter--and I promised my distinguished 
Chairman, who is a dear friend, to talk about energy.
    Folks, we are going to solve this crisis of air traffic 
controllers because nobodyis going to be able to afford to fly. 
You said that, Mr. Krakowski. So hopefully this Congress will 
address the issue of energy and we can get on down the road.
    But after 10 years as a Member, 40 years of flying, we have 
the same problem. The gentlelady from Hawaii is right on the 
money. It is about morale. Single best source of controllers, 
best source of problem-solving is in this group of experienced 
folks. They are leaving every day. There is a huge morale 
problem.
    FAA refuses, for my 10 years, to address the staffing 
problem head-on. You talk about decombining. Decombining is an 
emergency caused by not meeting the staffing problem. You are 
doing something that you are forced to do because you are not 
doing it through the front door, you are trying to come through 
the back door.
    I have had a very positive experience, Mr. Chairman, 
members of the panel, having people from the FAA come to our 
office, go to the field, and talk directly to members of NATCA 
who are trying to get the job done.
    Now, Pat, you alluded--excuse me, Mr. Forrey; I need to 
keep the proper title here--to the incredibly--and this is my 
opinion; I am not speaking from the dictionary--cumbersome 
mechanism that exists in this contract negotiation. This is 
supposed to be secret, that is supposed to be secret.
    We are trying to help get over the hump, get the job done. 
I would like to know how we are going to get that done. One, 
using the basketball analogy, says it is charging. The other 
one says, no, it is blocking.
    Referee Scovel, which is it here?
    Mr. Scovel. You are absolutely right, Mr. Hayes, it is a 
significant morale problem. It is a policy decision, of course, 
for the administration on the one hand, with the Congress's 
help, to try to get the parties together.
    There are 101 different reasons why controllers today are 
choosing to retire. At the top of many controllers' lists that 
we have spoken to has been the contract situation. Family 
considerations, other financial considerations, medical, they 
all enter into it. But for the most experienced controllers who 
see their retirement calculations essentially capped, that is a 
significant factor for them that they have to consider.
    Mr. Hayes. Dr. Dillingham, can you help us with this here? 
If people love what they are doing and they love to go do it, 
then other considerations sort of take a backseat. What would 
you suggest since we have been here before?
    Mr. Dillingham. Well, Congressman Hayes, I think, as usual, 
there is probably enough blame to go around on both sides. I 
think what Mr. Forrey said about the conversation not taking 
place, in a number of different areas we found that to be true 
too.
    And I guess, from my perspective, everybody here 
appreciates aviation and knows what aviation is to this 
country. And I think, you know, we are starting to at least 
have some more conversation.
    My concern is that we don't end up with a forensic kind of 
approach to this, as opposed to a prospective approach. And 
that is to say, if we are talking about controller fatigue, if 
we are talking about operational errors, if we are talking 
about runway incursions, then I think, you know, the 
seriousness of the issue is going to, you know, make the 
parties--we would hope, make the parties come together and 
address it before we really have a catastrophe that pushes us 
together.
    Mr. Hayes. I am convinced--and this is not necessarily in 
any order; pick your order--FAA, NATCA, NATCA, FAA, they want 
to solve the problem. Somehow you guys and ladies have got to 
declare a truce on whatever it is that is keeping you from 
talking constructively among yourselves. And once that truce is 
declared, then attack the problem, whatever they may be. 
Because we have got to keep these folks. Without controllers, 
NextGen doesn't matter. Two decades for NextGen? FAA, you have 
to get some sales classes going here. You have a product that 
people need and want, but you are telling them you are going to 
impose it on them.
    Same thing with the contract. You are telling them, "Hey, 
you are not doing it right." Okay, you all get in a room 
somewhere, secretly or publicly, and figure out how you are 
going to get this thing done.
    Mr. Forrey. I am ready to go back to the table.
    I just would point out that we didn't have these problems 
when we had a contract that was agreed to by the parties. We 
didn't need retention bonuses. We didn't have to go to retirees 
and say, "Come on back to work." We didn't have to pay people 
to go to other facilities because it was built into the system 
under the career ladder that we had in the contract. All that 
was stripped and taken away, and that is why they are leaving.
    We are willing to talk. I want to go back to the table.
    Mr. Hayes. You have good people, you have a heck of a 
challenge, great opportunity, wonderful system. Let's get her 
done.
    Thank you, Mr. Chairman.
    Mr. Costello. The Chair thanks you, Mr. Hayes.
    As a side note, let me say, as Mr. Forrey and Mr. Krakowski 
knows, the Chairman of the Full Committee, Mr. Oberstar, and 
Mr. Mica and myself, Mr. Petri spent many hours in the room 
with both the FAA and NATCA. And I will offer my opinion, and 
my opinion I have shared with you privately and I will say 
again, is that I thought the controllers agreed to the 
provisions and the offer that the FAA laid on the table, and 
then the FAA upped the ante. And, frankly, I think it is over 
Mr. Krakowski's pay grade. I think it was over Marion Blakey's 
pay grade. I think it was over the Acting Administrator's pay 
grade. And I think that the stopping point is the White House 
and OMB, frankly. And until it comes down from on top that they 
want to address this problem, we are going to be in a holding 
pattern.
    Mr. Hayes. So let's forgive the past and remember what we 
got to do in the future.
    Mr. Costello. The Chair now recognizes the gentleman from 
Oregon, Mr. DeFazio.
    Mr. DeFazio. Thank you, Mr. Chairman.
    Okay, let's talk about the future. I would like each member 
of the panel to say what are the two steps they think that 
could be taken that would most directly address the problem we 
are confronted with here, the loss of experienced controllers, 
controller fatigue, increased numbers of errors because of all 
this mess. What two steps?
    Let's go. Start with you, Mr. Krakowski.
    Mr. Krakowski. Clearly, to make it attractive for 
controllers who are retirement-eligible not to retire. They are 
good at their work; they like doing it.
    And secondly, I think we have some opportunities to invest 
in training technologies and whole new approaches to do this 
much better, much faster.
    Mr. DeFazio. Mr. Scovel?
    Mr. Scovel. Good afternoon, Mr. DeFazio.
    I would echo Mr. Krakowski's comments on his first point. 
But I would offer as a second point to get on the ball with 
regard to facility training.
    When we see differential percentages in terms of certified 
professional controllers versus controllers in training at some 
facilities ranging into the 30s and 40 percent, even at one 
facility mentioned in our statement, 67 percent at the 
Rochester tower, clearly facility training is an urgently 
needed item, and FAA needs to pay attention to it. We commend 
their effort on the work group, but they need to kick that into 
high gear.
    Mr. DeFazio. Dr. Dillingham?
    Mr. Dillingham. Yes, Mr. DeFazio, I think certainly we 
should do whatever we can to stop the exodus of experienced 
controllers.
    And also, with regard to the developmental controllers that 
are here, an increasing percentage of developmental controllers 
are being lost after they come out of the academy. Somehow that 
has to be addressed, because that is another leakage that stops 
from having adequate staffing.
    Mr. DeFazio. Okay.
    Mr. Forrey?
    Mr. Forrey. Mr. DeFazio, first of all, we need to stop the 
attrition of veteran controllers. And that means going back to 
the table. And that means negotiating an agreed-to and ratified 
agreement. If we don't have that, we don't have anything.
    Then we need to staff the system. And we need to staff the 
system based on scientific methods that determine what the 
system needs for staffing by facility. They haven't done that. 
They are right now staffing the budget.
    Mr. DeFazio. Okay.
    Mr. Conley?
    Mr. Conley. Congressman, I believe that both sides are in 
love with the past, the pendulum swings of the past, and it 
makes it very difficult for both sides to come together.
    The association itself has no position on this issue. But, 
from my personal opinion, we need to move forward, clearly, 
with the labor disputes and move beyond these and get to the 
real issues of the safety of the air traffic control system and 
the services provided to the flying public.
    And I would have to echo what these other gentlemen have 
said, that the training program has to be streamlined to the 
point that we can restaff our facilities quickly enough to 
manage the rates of retirement that are coming.
    Mr. DeFazio. Okay. So we have agreement on attrition, we 
just have to figure out how to get there. I think the Chairman 
addressed that.
    And what about this developmental controller issue and the 
training issue? Mr. Forrey, why are we losing the developmental 
controllers?
    Mr. Forrey. I think there are a number of reasons. One, 
they are not getting training.
    Mr. DeFazio. So what are they doing when they are not 
getting training?
    Mr. Forrey. Well, they twiddle their thumbs.
    Mr. DeFazio. So they are basically a lost asset. They are 
sitting around and----
    Mr. Forrey. Absolutely. Plus, too, they are not paid well 
enough, so they are out getting other jobs.
    Mr. DeFazio. So as a developmental they are not paid very 
well. Is the pay lower than it used to be for developmentals?
    Mr. Forrey. Yes.
    Mr. DeFazio. How much?
    Mr. Forrey. At least 20, 30 percent.
    Mr. DeFazio. Thirty percent. Over what period of time, 3 
years?
    Mr. Forrey. Well, they start at about less than $9 in 
Oklahoma City, and then they come out to about $31,000 a year 
or $32,000 a year. And if they are sitting in somewhere, Miami, 
Oregon----
    Mr. DeFazio. That takes us back to the contract issue, I 
believe.
    Mr. Forrey. Yes, absolutely, it does.
    Mr. Forrey. All right.
    Does anybody else have an opinion on the developmental 
controllers?
    Okay. One other issue, I had a briefing, a discussion on 
the simulators yesterday. Mr. Forrey, you seemed to say that 
you don't believe they can address much of the problem. But it 
seems to me that some of the problem with developmental 
controllers could be addressed.
    Mr. Forrey. I think simulator training is a good thing. The 
problem, when you bring 24 tower simulators, that is going to 
help 24 towers. Towers make up 25 percent to 30 percent of our 
controller workforce. The rest of our workforce is under radar 
control. And they have their own simulators. They have had 
simulators. That training has not speeded up at all.
    So it is great that we can speed up the controllers' 
ability in the tower to get them certified quicker. We need do 
that, and we should continue to do that. But it not an end-all, 
be-all.
    Mr. DeFazio. Do we need more than 24 simulators then?
    Mr. Forrey. Probably. We have a couple hundred towers.
    Mr. DeFazio. Anybody else have an opinion on how many 
simulators we might need? Is 24 enough throughout the system? 
Can people train remotely, efficiently on these? I understand 
that the military decided people couldn't use them really 
remotely. They needed to be on station.
    Mr. Krakowski. Actually, we are deploying 12 of the 24 this 
year, the other 12 next year.
    Mr. DeFazio. Right. And what percentage of the problem does 
that take care of, in terms of developmental controllers at 
towers?
    Mr. Krakowski. Let's say you have a simulator at O'Hare, 
you can also turn that very simulator into a Milwaukee control 
tower simulator. So, actually, it serves a lot of different 
functions other than just the O'Hare facility.
    Mr. DeFazio. Right. But if O'Hare is--I mean, there is so 
much down time, you are saying, that all these sites can share 
them, I mean, and access them efficiently remotely? Because, 
again, I understand the military had some problems with that, 
sort of, kind of, spoke system, that they went--they said, "No, 
gee, actually, we want to put one at each of these facilities."
    Mr. Krakowski. Yeah, I am not familiar with the military 
issue, but I will look into that. I would like to understand 
that.
    Mr. DeFazio. You might check into that. That is my 
understanding anyway. I am not an expert on that.
    Mr. Dillingham. Mr. DeFazio, there is another aspect of 
losing the developmental controllers. We are talking about a 
candidate who has completed the academy and is now at their 
first duty station and, for one reason or another, they drop 
out. It would seem to me that, depending on why they drop out, 
some of this screening can take place at the academy so that, 
if we are going to lose them, let's lose them sooner rather 
than later.
    I think there used to be a test upon graduation. If you 
didn't pass the test, you didn't go on further. I am not sure 
that test is still in place in terms of once you complete the 
academy.
    Mr. DeFazio. Okay. One last quick question, Mr. Chairman.
    Are we doing some comprehensive attempts at exit surveys 
for all of these dropouts and asking them why?
    Mr. Scovel. Mr. DeFazio, if I may, my office is responding 
to a request from Chairman Costello to conduct an audit of new 
controller training failures. And we are looking at the rate of 
those failures and the reasons for those failures.
    Mr. DeFazio. Okay. That would be very helpful. Thank you.
    Thank you, Mr. Chairman.
    Mr. Costello. The Chair thanks the gentleman and now 
recognizes the gentleman from Michigan, Mr. Ehlers.
    Mr. Ehlers. Thank you, Mr. Chairman.
    I apologize for being late. I was in a different meeting. 
And I will try to ask a semi-intelligent question anyway.
    Mr. Conley, just to direct something to you, you represent 
the FAA Managers Association, so your members or your 
colleagues are really there where the rubber hits the road or 
maybe I should say where the tires hit the runway. You are at 
the forefront of the action, right?
    Mr. Conley. Yes, sir, that is correct.
    Mr. Ehlers. And I am wondering, I have been in several 
towers and have watched the operations. Can you just--and I 
apologize again for covering ground that others may have 
covered here. The training program, how long is the training 
program for a typical controller before they actually get 
behind a mike?
    Mr. Conley. That question would actually be better asked of 
Mr. Krakowski. He has the facts and figures on that. It varies 
by facility. It varies by function. So I don't have the 
specific answer for you. But I can research and get it back to 
you.
    Mr. Ehlers. Okay. Well, Mr. Krakowski, do you have it at 
the tip of your tongue?
    Mr. Krakowski. Yes. Good to see you again, sir.
    We have controllers checking out in under a year right now 
at some facilities, to as long as 3, 3 1/2 years to become 
fully qualified. It depends upon the complexity, the size of 
the facility, the background of the student.
    It is one of the actual strengths of the training program 
that when you have people who can qualify and come to you with 
innate skill sets--they call them "naturals" out there--the 
training program is set up so they can certify faster. And, you 
know, when you certify faster, you also get the pay raises as 
you move through your certifications. So there is an incentive 
for the students to work hard as well.
    We have watched over the past 3 years the time of 
certification actually shorten, and we are putting more people 
out. So the numbers are looking good right now. I can give you 
any specific numbers you would like, though, sir.
    Mr. Ehlers. All right. I am just trying to get the full 
picture. Generally, you start them out in a smaller tower and 
they work up to the more complex traffic situations, correct?
    Mr. Krakowski. Not necessarily. We are in kind of a unique 
situation where we are actually putting new developmental 
controllers in some of the higher-level facilities. And that is 
somewhat of a first for the FAA.
    But, again, the training program is designed to make them 
successful. I assure you they are not put on position, either 
as a developmental or a CPC, until they are ready and 
qualified.
    Mr. Ehlers. And what educational requirements do they have 
to have before they beginning the training?
    Mr. Krakowski. I believe it is just high school, sir.
    Mr. Ehlers. Just high school? And are they paid while they 
go through the training?
    Mr. Krakowski. Yes, they are. They are paid throughout 
their training experience at Oklahoma City. And then when they 
show up at the facility, they actually become a developmental, 
and they get quite a pay raise at that point, pay bump.
    Mr. Ehlers. I see. Okay.
    Yes, I would be happy to yield to Mr. Diaz-Balart.
    Mr. Diaz-Balart. Thank you.
    And thank you, Mr. Chairman.
    I actually have a question for the FAA about this. 
Supposedly the FAA intends to decombine the Miami tower and the 
TRACON in the near future. And it is something that has some of 
us a little bit concerned.
    And the question really is, has a controller staffing study 
been conducted to date on both the tower and TRACON?
    Because it is my understanding that the risk--or whatever 
it is called, the safety risk management plan that was 
scheduled for earlier this week was postponed. And if that is 
the case, is there a plan to reschedule it in the near future?
    Does the FAA plan to hold off efforts to decombine until a 
proper staffing study and risk management plan has been 
conducted and those results have been reviewed? And if not, you 
know, what data was used by the FAA to make decisions to 
separate the two facilities? And when does the FAA intend, if, 
in fact, they are going to continue to do that, to bring the 
process of decombining to happen?
    Mr. Krakowski. Okay. Congressman, I would like to offer to 
give you a detailed briefing on the specifics of the entire 
approach at that facility. I can assure you, though, we would 
never actually pull the trigger on something like that until 
the staffing effects are understood through the study and that 
we have done the safety risk management study as well.
    Mr. Costello. The Chair would tell the gentleman from 
Michigan that his time has expired. And if that is agreeable, 
if he can give you a private briefing.
    The Chair now recognizes--let me say that we have two votes 
on the floor. We have about less than 5 minutes to get to the 
floor. But, however, Mr. Hall has been here the entire time, 
and I want to recognize Mr. Hall from New York.
    Mr. Hall. Thank you, Mr. Chairman.
    I just quickly wanted to ask Mr. Krakowski, you commented 
that you were working to improve labor relations, and I assume 
that is not just with NATCA. Because I remember a hearing last 
year--I am not sure if you--I guess you probably weren't on 
board then--but we had not just the controllers, but the 
airline pilots, the flight attendants, the mechanics, and even 
the attorneys from the FAA who had joined unions because they 
were complaining that they couldn't be heard, that their 
concerns were not being addressed when they dealt with them as 
individuals.
    So I assume it is agency-wide?
    Mr. Krakowski. Yeah. Actually, that is a very good point, 
and I appreciate your bringing it up, because I have over 40 
unions in my organization. And because NATCA is the big 
elephant, like the pilots union was where I came from were the 
big elephant, they get the most attention. But I don't want to 
proceed with a labor strategy that is just focused on one labor 
group either. We really do, as a management team, want to look 
at and treat all the labor organizations equally. And that 
certainly is my passion, sir.
    Mr. Hall. Equally and fairly, I assume.
    Mr. Krakowski. Always.
    Mr. Hall. And I just quickly would ask Mr. Scovel, you 
mentioned a significant confusion over who is in charge at 
certain towers, I believe? Could you describe quickly what that 
means?
    Mr. Scovel. Sir, I apologize if I was misunderstood on 
that. I didn't mean to say that there was a confusion over who 
was in charge at towers, but rather confusion in the field and 
even on the part of some headquarters officials over who was in 
charge of facility training.
    Mr. Hall. Got it. Okay.
    Mr. Scovel. There had been four different vice presidents 
at the ATO who had a hand in it. Mr. Krakowski is attempting to 
solve that now with his senior vice president for training.
    Mr. Hall. Thank you. You answered my question already.
    And, Mr. Forrey, if I may just ask you, what is the effect 
on the experienced controllers' work in a tower when 30 to 35 
percent of the staffing are developing trainees who may be 
needing coaching or calling on some of the more experienced 
controllers for advice or instruction?
    Mr. Forrey. First of all, when you have that many trainees 
in a facility, in a tower, that means you have probably a very 
serious staffing problem to begin with, because you have fewer 
certified controllers. So you are now training more often. You 
are working a position behind the person that is a novice, in 
most cases, or very limited experience. And it is very 
fatiguing. It is very hard to not say anything while this 
person tries to work traffic and learn the job as they are 
going along without interfering into that.
    So it is very fatiguing. That means they are working longer 
time on position. They are double-thinking for themselves and 
for the person they are watching. And it is very fatiguing. It 
has an impact where someone is going to make a mistake. And 
that is what we are concerned about.
    Mr. Hall. Thank you very much. I yield back.
    Mr. Costello. The Chair thanks the gentleman.
    We have a little less than 3 minutes to get to the floor. 
So let me dismiss the first panel.
    I do have some other questions. I will submit them to you 
in writing.
    We have a second panel that some of them, I believe, have 
flights out that we need to get to.
    So let me thank all of you for your testimony. It has been 
very informative. And I thank all of you on behalf of the 
Members of the Subcommittee.
    The Subcommittee will stand in recess for 15 minutes. And 
hopefully those of you want to take a break will take a quick 
break and be here before 15 minutes, so that when we come back 
from our recess we can immediately go to the second panel.
    Again, the Chair thanks all of you for your testimony.
    And the Subcommittee stands in recess.
    [Recess.]
    Mr. Costello. The Subcommittee will come to order.
    And the Subcommittee would ask the second panel to come 
forward. And as you are being seated, let me introduce the 
second panel.
    Mr. Don Chapman is the Philadelphia International Airport 
facility representative from the National Air Traffic 
Controllers Association, FAA certified professional controller; 
Mr. Melvin Davis, Southern California TRACON facility 
representative, NATCA, FAA certified professional controller; 
and Mr. Steven Wallace, Miami Center facility representative, 
NATCA, FAA certified professional controller.
    Gentlemen, again, we appreciate your patience. We 
understand that some of you may have a flight to catch, so we 
will immediately go to you for your testimony. We would ask 
that you summarize your testimony. Your entire statement will 
appear in the record. And under the 5-minute rule, the Chair 
now recognizes Mr. Chapman.

    TESTIMONY OF DON D. CHAPMAN, PHILADELPHIA INTERNATIONAL 
    AIRPORT, FACILITY REPRESENTATIVE, NATIONAL AIR TRAFFIC 
CONTROLLERS ASSOCIATION, FAA CERTIFIED PROFESSIONAL CONTROLLER; 
     MELVIN S. DAVIS, SOUTHERN CALIFORNIA TRACON, FACILITY 
 REPRESENTATIVE, NATIONAL AIR TRAFFIC CONTROLLERS ASSOCIATION, 
FAA CERTIFIED PROFESSIONAL CONTROLLER; STEVEN A. WALLACE, MIAMI 
     CENTER, FACILITY REPRESENTATIVE, NATIONAL AIR TRAFFIC 
 CONTROLLERS ASSOCIATION, FAA CERTIFIED PROFESSIONAL CONTROLLER

    Mr. Chapman. Good afternoon, Chairman Costello and Ranking 
Member Petri. And I would be remiss if I did not thank you for 
holding these hearings to bring this issue to the forefront, so 
thank you.
    My name is Don Chapman. I am a controller at the 
Philadelphia tower and TRACON, and I have been a certified 
controller for over 18 years. I have served as a union 
representative for nearly my entire career. I am a qualified 
instructor and a controller in charge.
    Understaffing is a serious issue that has affected the 
entire air traffic system. Many facilities, such as the New 
York TRACON, Miami Center, the Southern California TRACON, are 
outright dangerous in terms of their low staffing. Others are 
facing different kinds of issues, all as a result of the 
controller staffing crisis.
    Philadelphia Tower and TRACON is one of 137 combined 
facilities within the FAA inventory. Controllers certify in 
both the control tower and radar approach control. Combined 
facilities like Philadelphia enjoy the lowest operational cost 
and lowest error rates of any type facility within the FAA 
system.
    Prior to September 2006, 109 controllers were authorized at 
Philadelphia. In March of 2007, the FAA implemented a staffing 
range, reducing the number to a minimum of 71 controllers, 
approximately a 35 percent reduction in authorized staffing. In 
contrast, when I arrived at Philadelphia in 1993, there were 
approximately eight trainees and few, if any, eligible for 
retirement. Philadelphia Tower and TRACON currently has 69 
certified controllers and 18 trainees. Fifteen controllers are 
eligible to retire by the end of the year.
    In an FAA staff study dated June of 2007, the FAA itself 
noted that Philadelphia Tower TRACON is faced with the 
possibility of a severe staffing shortage of certified 
professional controllers due to the number of controller 
retirements. The study went on to say, "The loss of qualified 
controllers, supervisors and support staff is creating a strain 
on the required operational staffing and the training of 
developmental controllers assigned to the facility."
    Traditionally, high-density terminal facilities have always 
recruited experienced controllers from lower-density facilities 
to fill vacancies. Due to the staffing shortage, the FAA has 
begun introducing newly hired controllers with no experience 
into these top-tier facilities, creating an extreme burden on 
facility training as well as a drastic reduction in experience 
level.
    At Philadelphia, for example, a typical crew of seven 
controllers manning the tower had an average combined total of 
40 to 50 years' experience. Today the tower cab may be staffed 
with controllers with only 1 to 2 years of experience each.
    Because of the staffing crisis, the FAA announced its 
intent to split Philadelphia Tower and TRACON into two separate 
facilities in January 2009. The FAA also intends to separate 
Miami, Orlando, Memphis, Charlotte and more facilities after 
that.
    The FAA itself admits that separating the facility will 
actually require increasing the number of controllers and 
management necessary to staff the facility. This action will 
allow the FAA to misleadingly report that they have more 
certified controllers, when they will have only changed the 
structure of the facility. Decombining facilities will remove 
the optimal seamless environment and efficiencies that have 
existed for approximately 40 years and also provide the FAA an 
excuse to further cut salary levels of controllers.
    The FAAis compounded staffing problems rather than easing 
them. Instead of allowing the controller ranks to become 
healthier, the FAA has continually reduced the active 
controller staffing levels in favor of moving controllers to 
management or other noncontrolling positions.
    While controller staffing levels remain inadequate, 
management positions have been increased. In Philadelphia, in 
the past 4 years, 16 certified controllers have been 
transferred to noncontrolling positions. For example, in 2004, 
Philadelphia had nine supervisors, four second- or third-level 
managers, and approximately 89 controllers, and worked 475,000 
operations. In 2007, Philadelphia has seven second-level 
managers, 12 supervisors, and as few as 82 controllers, and we 
worked 516,000 operations.
    Additionally, the FAA has made questionable management 
decisions regarding staffing. Earlier this year, a certified 
veteran controller who was also a qualified instructor was 
given an incentive bonus of $20,000 under the FAA's incentive 
program to transfer from Philadelphia to Chicago. Shortly 
thereafter, the FAA offered a new incentive bonus of $20,000 to 
attract controllers to transfer to Philadelphia. In other 
words, the FAA paid $20,000 to attract a replacement for the 
controller the agency just paid $20,000 to leave.
    Staffing shortages have created a situation where it is 
nearly impossible to allow current certified controllers to 
have meaningful participation in the development of vital 
procedures and equipment, leading to either the development of 
unsafe changes or equipment deployment delays and cost 
overruns.
    Due to staffing shortages, controllers routinely work 10-
hour shifts. As a result, scheduled time between shifts is 
shortened, resulting in exacerbated fatigue issues that would 
not otherwise exist or be as acute. Tired controllers work 
slower. And often, when controllers are worn out, they tend to 
slow down in the interest of safety.
    The act of providing training can itself be extremely 
fatiguing. Live training requires an instructor to have to try 
to anticipate what a trainee will say or do and be able to 
instantaneously override or correct the trainee if they make a 
mistake. In the fast-paced environment of air traffic control, 
this can be extremely taxing. Many times, the instructor must 
slow operations to maintain an adequate safety margin, adding 
to delays.
    Controller training has also been detrimentally impacted by 
the staffing shortage. Training debriefs are rushed because 
instructors are needed to staff other positions. This has 
reduced the quality of instruction the next generation is 
receiving.
    These are but a sample of the myriad of issues facing the 
air traffic control system today. Thank you for allowing me the 
opportunity to testify, and I look forward to any questions.
    Mr. Costello. Mr. Chapman, the Chair thanks you, and now 
recognizes Mr. Wallace.
    Mr. Wallace. Chairman Costello, Ranking Member Mr. Petri, 
and Members of the Aviation Subcommittee, my name is Steven 
Wallace, and I am an air traffic controller at Miami Center. We 
are located in Miami, Florida.
    I started my career with the FAA in November 1991, and in 
addition to my duties as an air traffic controller, I have had 
the honor and the privilege of representing my co-workers since 
1996.
    When I began air traffic controller training at Miami 
Center, there were 196 fully certified controllers, 108 
trainees, and we handled 1.5 million operations a year. Today 
there are 192 controllers that are certified, 84 trainees, and 
we post an annual number exceeding 2.5 million operations.
    Our target staffing number has always been 279 controllers. 
Fifteen years ago, a busy day at Miami Center meant that we 
would handle 5,000 aircraft in a day. Today that number is 
10,000. Years ago, on a busy day it was mandated that the 
busiest positions be staffed with three controllers. Five years 
ago, that number was two. Now it is not uncommon to have no one 
to help you when you are working 10,000 operations in a day.
    When controllers get two airplanes too close together, it 
is called an operational error. Fifteen years ago, 12 
operational errors in a year at Miami Center was a big deal. 
Now the agency believes that 25 is okay. In 2007, the FAA 
adopted the term "proximity event" for minor errors and then 
quit tracking those. As a result, the real number of errors 
that we make is not known. But in the FAA's eyes, safety was 
never compromised.
    The last thing that anyone wants is for two aircraft to get 
too close to each other. It is my job to ensure that never 
happens, and my co-workers and I meet that challenge every day 
with passion and professionalism. Each of us is dedicated to 
seeing that passengers get from point A to point B safely, not 
99.5 percent of the time, but 100 percent of the time. I do not 
want my family on an aircraft that is protected by less than a 
100 percent fully certified, competent air traffic controller.
    Constantly working in this manner wears on you, though. As 
the numbers of controllers in Miami and the rest of the country 
have dwindled, the level of stress and fatigue endured by 
controllers has continued to rise.
    The FAA likes to say that they are managing resources 
better than they used to. They use programs with cute names 
like Snowbird to hide the real staffing crisis. The better 
resource management that they speak of means mandatory 6-day 
work weeks comprised of 10-hour days for me and my colleagues. 
When we signed up for this job, we knew that we would be giving 
up many holidays with our families, time with our friends at 
neighborhood cookouts, and soccer games with our children on 
the weekends. It was a commitment that we made. We did not want 
to make a commitment to give up our lives, though.
    With no hope in sight and the horizon getting farther away, 
many of my fellow co-workers have retired as soon as they were 
able, because they didn't want to spend the rest of their lives 
working this way.
    The current working conditions, coupled with the increased 
stress of working at your highest performance level while not 
making a mistake, has taken its toll on many of my co-workers. 
I have watched as many of them have become so stressed out, so 
fatigued, so preoccupied with not making a fatal mistake that 
they have quit rather than run the risk of being the person on 
position when an accident occurs.
    Two years ago, Miami Center was designated as a focus 
facility by the FAA due to our staffing shortage. Developmental 
controllers report into the facility. Then, this past year, the 
FAA implemented the functional training program at Miami Center 
and eliminated the seasoning that used to be a prerequisite to 
advancement. As a result of the new training program, many of 
those developmental controllers have sat doing nothing for the 
past year and a half. Many of the trainees may still check out 
within the usual 4 years, but under the new program it will 
take that much time to certify because of delays, not because 
they are gaining valuable seasoning time.
    The developmental controllers that are being hired are 
leaving in record numbers because they do not want to make the 
same kind of commitment that I made. And why should they? Their 
pay has been cut by 30 percent, and their working conditions 
are not acceptable.
    At Miami Center, 14 developmental controllers have resigned 
since July of last year. That is 14 more than in all of the 
other years that I have worked for the FAA. They see the same 
thing that I see. There is no quick fix to the problem.
    This last year, four developmental controllers failed the 
training program. I also watched as 12 of my co-workers left 
due to mental or physical illness, from stress and fatigue.
    While our numbers have been depleted due to unexpected 
attrition, the FAA has also taken many supervisors and moved 
others to jobs outside of that of talking to airplanes. We have 
supervisors who are responsible for as few as four controllers. 
Ten years ago, they used to have to watch eight or nine. We 
have managers that supervise two. It is obvious that the number 
of chiefs has grown proportionately with the number of errors.
    Without including the expected retirements for supervisors 
and staff assignments, the stress-related losses, the training 
failures, and the resignations at Miami Center represent 16 
percent of workforce loss. At the end of this year, there will 
be 19 more controllers eligible to retire at Miami Center, and 
more next year, and still more the next.
    While airspace changes and technological advances have 
enabled me to handle more airplanes, there is a breaking point. 
Air traffic control is a very unique occupation, and not 
everyone can be an air traffic controller. It takes time to 
train someone to do the job.
    The current staffing level at my facility, like many major 
facilities across the country, cannot adequately sustain the 
level of safety that the flying public expects and that air 
traffic controllers demand if something doesn't change. Because 
the FAA has failed to take the necessary steps to fix the air 
traffic controller staffing crisis that has been 2 1/2 decades 
in the making, we are asking Congress to step in and bring the 
system some much-needed relief.
    Thank you very much for the opportunity you have given me 
today, and I look forward to questions.
    Mr. Costello. The Chair thanks you, Mr. Wallace, and now 
recognizes Mr. Davis.
    Mr. Davis. Mr. Chairman and Ranking Member Petri, again, 
thank you also for the opportunity to speak. And I am honored 
to be here.
    My name, again, is Melvin S. Davis, air traffic controller 
at the Southern California TRACON. And I worked there 9 years. 
And then prior to that I worked 10 years at the Los Angeles 
International Airport. I got my training in the United States 
Marine Corps, and I am proud of that.
    The FAA will tell that you staffing does not affect safety, 
and that is simply not true. In 1991, there was a scenario that 
developed, there was a controller that had been certified for 
less than a few months and had been in the FAA for just a 
couple of years, was working position. It was at night. She did 
not have an assist. And she cleared an aircraft to land on an 
occupied runway. And, as a result, 34 people died that night.
    That is the exact same thing that is happening at 
facilities across the country today. It happens at mine every 
day.
    With the training, as the developmentals come in, they are 
certified, they are making mistakes, and there isn't anybody 
there to help catch them. We had one situation where a 
controller came in, was certified on their first sector, made a 
mistake, and it resulted in three aircraft coming too close 
together over the skies of Burbank. She went immediately to the 
psychiatrist's office, hasn't been back yet.
    We had another situation where a young man, certified on 
position less than a month, first position, he has got six or 
seven to go, puts two aircraft on a collision course, same 
altitude, doesn't recognize it. The TCAS takes over, the flight 
crews intervene, and they saved the situation.
    Again, those types of things are happening on a daily 
basis.
    As our veteran workforce reaches retirement eligibility, 
the effort to pass the baton has just begun too late. My 
facility handles 2.2 million operations a year. It is the 
busiest of its kind in the world. In the past 4 years, there 
has been 261 controllers 4 years ago; there is 160 today. That 
is a 40 percent reduction. There was $250,000 spent in overtime 
4 years ago. We spent $4 million last year. That is a 1,600 
percent increase. There was 10 operational errors 4 years ago. 
This year we are on a pace to hit 40. That would be a 400 
percent increase.
    These mistakes will eventually result in a catastrophe. The 
fact that they haven't at this point is amazing to me.
    We are totally mission-oriented. We are committed as 
controllers to getting the job done. We will to do what the 
agency asks us to do. But they continue to ask us to do more 
with less.
    Unlike my counterparts explained earlier, at our facility 
we have actually consolidated work. We have assigned more 
sectors to fewer people. So it is the exact opposite response 
to the problem that they are doing elsewhere in the country, 
and it makes no sense.
    As the staffing decreases, the automatic reaction is to 
reduce the amount of time controllers are assigned to the 
assistant controller position. This eliminates the redundancy 
provided by the extra set of eyes and ears, and, again, it does 
reduce safety.
    The further reductions of staffing have required the FAA to 
combine the sectors. This leads to increased fatigue. I see 
people walk by my office--I am actually a controller, but I 
spend some time in the office a couple days a week--and the 
have bags under their eyes, third or fourth cup of coffee, and 
they are completely losing it.
    One career veteran, he is 22 years in, he has 5 years until 
he is mandatory retirement, walked into my office about 2 weeks 
ago, said, "I have lost it." He just had a situation where it 
was the breaking point, tears in his eyes, again, leaves, goes 
directly to the psychiatrist's office, he will never work 
airplanes again.
    These are statistics when you look at a whole, but they are 
tragedies individually.
    Two weeks ago at the Southern California TRACON, Bruce 
Johnson, the FAA ATO vice president for terminal operations, 
sat and said, "You know, I am afraid that if we reverse course 
now, things will only get worse. Why don't we just wait another 
year and see what happens?" Those are the type of people 
leading this organization. They have completely lost track of 
the stresses and strains that we deal with on a daily basis 
because their experience is so far back. Their hearts have just 
grown cold. And it is extremely frustrating to say, what is it 
going to take to wake them up and respond to the problem?
    Again, I just thank you for the opportunity to testify. 
Thank you for the time.
    Mr. Costello. Mr. Davis, thank you.
    And I thank all three of you for being here and offering 
very thoughtful testimony concerning not only your experiences 
but what you have experienced on the job, dealing with some of 
your colleagues.
    A couple of questions and to clarify a point or two, Mr. 
Davis. You mentioned that, at your facility, fully qualified 
controllers went from 261 to 160. And that was due to 
retirements.
    You were here, I think, for the earlier testimony with Mr. 
Krakowski and the Inspector General and the GAO. Mr. Krakowski 
would give us a list of reasons why controllers have been 
retiring. But if you had to identify the two main reasons why 
we are seeing so many experienced controllers leave the 
workforce and take their retirement, what would the two reasons 
be?
    Mr. Davis. The two main reasons are fatigue. It is a 
downward spiral. It is a never-ending cycle.
    It is a small window where we are eligible to retire and 
then where we are mandatorily retired. It is usually about 5 
years. So you are thinking about it the day you come into the 
agency. You are thinking, "Okay, I am going to go at this 
date," and then you are forced out 5 years later. Well, now 
these people are going. They look at somebody around them and 
say, "Okay, I am leaving because I don't want to stay the extra 
2 years or 3 years."
    It is fatigue. And the more people that leave, the worse 
the problem gets. And that is the main reason.
    Mr. Costello. You were here when I asked Mr. Krakowski why 
we are having such a difficult time recruiting experienced 
controllers at the FAA. In previous years, we were able to 
recruit many military controllers, such as yourself. When you 
entered the workforce, when you left the military, you went to 
the FAA and became a civilian controller.
    Why are we having such a difficult time recruiting 
experienced controllers over at the FAA?
    Mr. Davis. I believe that what Mr. Forrey said earlier was 
the reduction in pay. There is competition out there for those 
jobs now that there wasn't before. There is private contractors 
that have air traffic control jobs. And there is Department of 
Defense that has air traffic control jobs, civilian Department 
of Defense jobs. And they are paying more.
    So they are being attracted to those other locations. The 
work isn't as intense, and the pay is better. So it is a 
relatively simple equation. I think that that is a huge factor 
in our inability to attract the most qualified people.
    Mr. Costello. For the record again, you gave the figures as 
to what the FAA has spent in overtime at your facility in 
comparison to previous years. Would you restate that for the 
record?
    Mr. Davis. Yes. In 2004, we used $250,000 in overtime. And 
in the last 12 months, we have used $4 million in overtime.
    Mr. Costello. So $4 million in overtime in the last 12 
months.
    Mr. Davis. Correct.
    Mr. Costello. Just at your facility.
    Mr. Davis. Correct. I have seen 2,000 years of experience 
walk out the door.
    Mr. Costello. Let me ask a question for all of you, and it 
deals with the issue of fatigue. It is an alarming problem to 
me. We have heard testimony both from the Inspector General, 
the GAO. The agency continues to, kind of, play fatigue down 
and say that, "It is a concern of ours, we are looking into it, 
we are having input, and we are having a gathering of many 
people, academic people and so on, coming in to look at the 
issue."
    I wonder, in dealing with the new recruits, the new hires--
we know why the most experienced controllers are leaving. I 
mean, you have detailed that, and we have heard that from 
others. Why are the new hires leaving?
    When they come out of the academy and they come into the 
job, there is a much higher attrition rate with new hires than 
the FAA ever anticipated. I wonder if you would talk about 
that. And does it deal with stress and fatigue?
    Mr. Davis. I would say that the way the system was set up 
in the past, that you would test at the academy, and you would 
see a 75 percent or 80 percent attrition rate there. There was 
very stringent hiring practices and a huge amount of the 
attrition. And then when an individual finally made it through 
that and got to a facility, he is a better candidate.
    What they are doing now is they are just shotgun-hiring, 
and they are running them through the academy without those 
hurdles that they have to jump over to get to the facility. 
They show up. And we are just experiencing the same amount of 
attrition, it is just happening at a different location. It is 
happening at the facility, where it used to be happening at the 
academy.
    Mr. Costello. Mr. Wallace?
    Mr. Wallace. Thank you, Mr. Chairman.
    At Miami Center, the primary cause of the developmental 
departure is pay--pay and their working conditions.
    They report to Miami Center, they are told that you will 
get pay progression when you complete certain portions of your 
training. In the past, those types of classes, the upgrade 
classes were scheduled out every 9 months, 10 months or so. 
Classes would last about a month and a half to 2 months. They 
would come downstairs to the floor, and they would then certify 
on a position or two, and they would get a pay raise.
    You have moved developmental controllers, brand-new hires 
who have $75,000 worth of college debt, into high-cost living 
areas, such as southern California, south Florida, 
Philadelphia, and you are paying them 30 percent less. You take 
them to facilities such as Miami Center, you change the 
training program on them, and then don't let them have a chance 
for any upgrade training for upwards of 2 years. We have folks 
that have sat at Miami Center for a year and a half.
    It doesn't take long for the next group, the group that is 
in there, after a certain portion, realizes that they have made 
such a commitment now, they have to see a portion of it 
through. But the people that have just come in sit and look and 
say, "Well, if I am going to be a year and a half, I might as 
well go to work for Lockheed Martin or another competitor 
somewhere, or, better yet, go back to flying airplanes, which 
is what I was doing before, what I was trained to do out of 
college. And then maybe I can make some money, instead of 
sitting around doing nothing to only end up making less."
    And to actually tag onto that, the FAA just changed the 
hiring requirements. The kids that are here now--and forgive me 
for calling them kids; they are very young, very dedicated 
professionals, some of the hardest-working folks that I have 
seen.
    Those folks come into the facility, and they have been 
told, "You must have a 2- or 4-year degree from a select number 
of universities." It has cost them $75,000. They walk in the 
first day, they get there, and 3 to 6 months later they are 
told, "You no longer have to have this type of education. We 
are going to hire anybody off the street to come do the job." 
Well, they just made that group of people very upset, and they 
are not helping them pay for their school. That is why you are 
seeing them leave.
    Mr. Costello. Mr. Chapman?
    Mr. Chapman. To go specifically to your question, the FAA 
has turned air traffic control from what used to be a career 
occupation that you felt you had a future in, to an uncertain 
occupation. It is as if they are working at McDonald's or 7/11.
    They have no trust in the agency that they will have a 
future. The agency has no more structure left where you can 
work in a smaller facility and progress up the ladder. They 
don't have any assurance of where their pay will be, where 
their career will be. They can't trust their families to the 
occupation anymore, because the agency has decimated it with 
both mistrust and what they have done with the pay system, 
quite frankly.
    Mr. Costello. Final question, and then I will turn to Mr. 
Petri. We have heard some of the new hires, because of the 
reduction in the entry-level pay, that they are actually out 
working second jobs in order to pay their college tuition, in 
order to live in very expensive areas, as you detailed, Mr. 
Wallace, in the country.
    Mr. Costello. [Continuing.] I just wonder from your 
experience with the new hires in the facilities where you are, 
are you seeing that? Are you seeing new hires that are working 
other jobs other than on the job as a controller.
    Mr. Chapman. Yes, sir. We have a few. I have one who worked 
as a computer engineer, and he is still doing freelance work. 
He is lucky because he has the skills to do that without 
actually working and he can still earn additional money.
    One thing I would add to that is a lot of them are hanging 
on to see what will happen and they have all given us the 
impression of, look, if this isn't fixed within a year or two, 
I am working on a college degree in another area. I am going to 
do something else. But they are hopeful that there will be a 
correction and they want this to be their career. They are just 
not comfortable that it will be their career.
    Mr. Costello. Mr. Wallace.
    Mr. Wallace. Thank you. A lot of the developmentals that we 
have now wait a very long time to get hired by the FAA and they 
are very committed and, as Mr. Chapman said, they are committed 
enough to go get a second job to try to make it work. There are 
developmentals at Miami Center that are still trying to find 
second jobs that will allow them the latitude to have a 
rotating shift or that will allow them latitude to be gone 
during certain days of the weeks so that they can eventually 
get into a training class. The difficulty they are having in 
doing that, they have a career. They have a career choice. It 
is very hard to explain to someone at a restaurant or at a 
hotel, for instance, that you are an air traffic controller and 
you need a second job. Most of the time they feel that you are 
not going to be committed to that and if you take the second 
job the FAA will turn it around on you, or if you try to better 
yourself through going through school--this just happened with 
one of our developmentals who is having a little bit of 
difficulty in his training--they will turn it right back around 
on you and say you are not committed to the FAA and you are not 
committed to your training. And if they have a single hiccough 
in their training, then the FAA will use that as a means to try 
to separate them.
    Mr. Costello. Mr. Davis.
    Mr. Davis. Yes. I am not specifically aware of individuals 
that have two jobs, but I do see the type of coping mechanisms 
that are associated with that type of a scenario. They are 
living together. They are grouping together, pooling their 
resources and those types of things. But like Mr. Wallace said, 
it takes an incredible amount of commitment to absorb the 
information that you have to do the job on a daily basis. I 
don't have any specific knowledge of second job people, but I 
do have definitely people that are struggling.
    Mr. Costello. Thank you. The Chair now recognizes the 
Ranking Member, Mr. Petri.
    Mr. Petri. Thank you very much, Mr. Chairman. Maybe I could 
expand on some of the questions that you asked. I think, Mr. 
Davis, you mentioned what is astounding to me and I think to 
some others, the number of $4 million overtime. Do you know how 
much of that was voluntary and how much was not, or is that an 
important distinction?
    Mr. Davis. I think it is an important distinction. There is 
a list of individuals in the facility where they will say do 
you want to work overtime? And then there is a list that says I 
don't want to work overtime, but I will work it if you have me 
do it. Sixty-five percent of the people at the facility are on 
the "yes" list. But we are all being assigned overtime because 
the agency has to do that to accomplish the mission.
    So I am not sure if I have answered your question. We know 
the agency has a right to assign us overtime and they are doing 
that and they have to do that to accomplish the mission. That 
is the only way the airplanes can move through the airspace at 
this point. So it is in my mind irrelevant whether I am on the 
"yes" list or the "no" list. If I have 2 days off I get four 
calls for overtime every weekend, in the morning, in the 
evening, in the morning, in the evening, and I am on the "no" 
list.
    Mr. Petri. In our area that I am familiar with sometimes 
people look forward to getting overtime and other times they 
have had enough or it is very inconvenient for them. So they 
have a way of allocating it or working it. Is that done or is 
it basically people are doing overtime whether they want to or 
not?
    Mr. Davis. What has happened at our facility specifically 
with the 40 percent reduction in staffing, there is no option. 
The majority of us of are timed out where you can only work 6 
days a week and you can only work 10 hours a day. There isn't 
anybody to trade it to where there was in the past when, say, 
the staffing was down 10 or 15 or 20 percent. There are no 
options. So there is an increase in the use of sick leave. That 
is one coping mechanism, is to say I am burned out and need a 
day off, but there isn't anybody to turn it to and trade it to 
because the staffing has gotten so bad.
    Mr. Petri. Mr. Wallace, in your written statement and your 
summary you also mentioned change in the definition of 
operational error by the FAA. Could you expand on that or 
describe exactly what that means in practice?
    Mr. Wallace. Yes, sir. Our accepted standard for separation 
is 5 miles and 1,000 feet. There is a severity classification 
for operational errors, category A, B, C, D. Minor errors, 
which are 80 percent, 90 percent is that total separation or 
more, meaning it is not quite 100 percent but it is greater 
than 90 percent or greater than 80 percent, have always been 
considered to be minor errors. It still occurs. But the FAA 
recently changed the category from classifying those minor 
errors as operational errors, which are carefully tracked. They 
are put into the FAA Administrator's handbook that is 
distributed at the beginning of every quarter. That 
classification was changed to proximity event, and proximity 
events, while they were intended in some degree to allow some 
latitude for air traffic controllers to run airplanes a little 
bit tighter together in areas where maybe there is a lot of 
congestion and maybe it was just a slight mistake, those types 
of situations are no longer tracked. It is still an error. It 
is still a mistake. The safety standard did not change. And the 
fact that the airplanes were not 5 miles apart, not 1,000 feet 
separated, that did not change, only the name and we don't 
count those anymore. And as a result of that I can't tell you 
how many operational errors we have had at Miami Center this 
year. I just know we had 25 more, which is a 67 percent 
increase in the number of errors over the last "X" number of 
years, and we are working a million airplanes more.
    Mr. Costello. The Chair thanks the gentleman and now 
recognizes the distinguished Chairman of the Full Committee Mr. 
Oberstar and congratulates the Chairman on what I think is a 
historic day here in the Congress in passing rail legislation 
that really puts this country on the right track and did it by 
not only passing the legislation but by an overwhelming margin.
    Mr. Oberstar. I thank the gentleman for those comments and 
for his vote and I thank all the colleagues on the Committee. 
We had an overwhelming vote: 87 Republicans voted with all of 
the Democrats in passing Amtrak legislation. We are not quite 
going to put aviation out of business, but we are improving the 
quality of surface transportation, high-speed inner-city 
passenger rail.
    What does the FAA tell you the time it takes to become an 
FPL, full performance level controller? What is their standard 
now?
    Mr. Davis. At my facility it is roughly 2 years.
    Mr. Oberstar. Two years. But that is checking out on how 
many positions?
    Mr. Davis. Well, what they have done with the consolidation 
recently, what used to be an average of six or seven sectors it 
has gone to eight or nine now. So it has definitely extended at 
my facility, the time it takes to certify.
    Mr. Oberstar. It seems to me the FAA has changed the 
standard for definition of FPL over the last 15 years or so.
    Mr. Davis. I would say that the definition is still--it is 
now CPC versus FPL. The definition seems to me to be about the 
same but the requirements of the time it takes to become that 
have increased now definitely.
    Mr. Oberstar. That is sleight of hand. It is manipulation 
of the reality of the workplace. When they have a staffing 
standard for a facility, whether it is a tower, TRACON, or 
other facility, if they say the staffing standard for this 
facility is 150 controllers and they include in the count, in 
the actual count developmentals but don't include first line 
supervisors who are actually working controls, then the number 
is skewed. If they weed out the developmentals and count the 
first line supervisors, they are counting people who are under 
the rules supposed to be performing--working at controls only 
10 percent of the time, not full time.
    So what this panel has told me, what the testimony, which I 
read last night because I was going to be on the floor today 
for the Amtrak bill--I knew I would miss the early part of this 
hearing. But I hear your saying developmental controllers. 
Three controllers at this position down to two controllers 
today, 297 at our facility down to 197, 6-day workweeks, 10-
hour days. You didn't talk about leave time or respite time. 
You didn't talk about time away from controls after continuous 
work at the boards. And now you are saying in at least one 
situation they are saying an FPL status in 2 years? It used to 
be 5 for a FPL to check out at all three major positions. And 
you are saying that in Miami the same number of controllers as 
in 1992.
    Mr. Davis. Yes, sir.
    Mr. Oberstar. And you are talking about the stress you are 
experiencing and your colleagues have expressed and 
experienced. Some of you may know this, but from the mid-1970s 
to the mid-1980s, FAA conducted 27 different studies of stress 
on controllers. Every one of them came back with a report 
controllers are overstressed, putting in too many hours at 
controls, too many continuous hours at controls, not enough 
leave time, not enough respite time in the course of the 
workday, not enough training and retraining opportunities, and 
the FAA rejected every one of those reports. That was under 
different Administrators, under different administrations. And 
then all that came to a head in 1981 and we have a strike and 
the firing and well over a billion dollars of Federal funds to 
rebuild the air traffic control workforce. And what we heard 
from one after another Administrator in this hearing room was 
we are getting a better quality controller, more experienced, 
more savvy with work stations. They know more than the Nintendo 
generation and they are better prepared and they are not going 
to be cry babies because that is what they said about 
controllers who complained about the factors I just cited.
    So where are we today? This is what we are hearing. This 
could be the transcript of 1981. This could be the transcript 
of 1985. This could be the script I heard in 1990. And still 
this FAA wants to shove down your throat or has done already a 
contract that no one in the private sector would accept. No one 
is going to say we will work for 5 years at 2 years ago pay and 
then renegotiate our contract 5 years out in the future based 
on 5- or 6-year-old pay. No one will do that except Members of 
Congress. We don't get any increases either, but we ask for it. 
And that is the problem. But it is the same problem resurfacing 
all over again. And I have been through it for 25 years and I 
am exasperated at what is happening. And I am further 
exasperated that the other body, as we affectionately call that 
crowd over 200 meters away from here, hasn't moved our aviation 
bill that has a pathway to at least partial resolution of the 
problem you are citing today.
    I find it astonishing that there is no recognition of 
history repeating itself on the part of the managerial echelon 
at FAA. And I am sorry you have to be here, but I am glad you 
are here to tell us this story. I am sorry for your having to 
experience it. I have been in towers, at TRACONs, in contract 
facilities, in every imaginable FAA facility. I have seen 
controllers at work. I have seen a situation where a controller 
has 27 aircraft in her section. And in this particular 
situation, there was a KC-135 that had a fire on board, and 
that controller had to move 27 aircraft out of the airspace to 
give that tanker room to dump fuel so he could get on the 
ground before the plane blew up. And the other FPLs all 
gathered around and supported this woman, and the first line 
supervisor was skilled, capable, did the same. She got that 
aircraft on the ground, no incident. She and the other five 
coworkers were etched in sweat.
    You believe in what you are doing. You know you have lives 
at stake. You know you have the safety of helpless people in 
your hands dependent upon your skill and your level of 
alertness and your ability to be at your top edge every moment 
of the day. We need to respect that. We need to do better than 
this system, than the FAA is doing for you today. And we are 
trying.
    Thank you.
    Mr. Costello. Thank you, and the Chair now recognizes the 
gentlewoman from West Virginia, Mrs. Capito.
    Mrs. Capito. Thank you, Mr. Chairman. I thank the gentlemen 
for their testimony here today. I have one quick question and 
then one sort of wish list question.
    What is the starting salary for a developmental, range-wise 
now?
    Mr. Wallace. I can speak for Miami Center. Right now when 
someone arrives at Miami Center that beginning salary is 
$37,500.
    Mrs. Capito. And it can go up after 6 months, did you say, 
or is it not until 2 years?
    Mr. Wallace. It goes up predicated on how many positions a 
person certifies on. And in the past, trainees that reported to 
Miami Center would immediately be put into certain upgrade 
training, and it would take anywhere from 3 to 4 months they 
would see their first raise. Then about 9 months to a year 
later, they would see another raise and it was incremental. But 
it also went with the seasoning time that they gained in 
between checking out on certain categories of positions, 
whether it was a manual assistant over here or a radar 
controller over here.
    And that has changed now with the new functional training 
program where they come in and they sit and they do nothing for 
a year and a half, and then they begin what should be a 3-month 
training session. The last big training session at Miami center 
that was scheduled for 3 months lasted for 9 because the FAA 
repeatedly changed the training program on the fly. They 
changed the training program and the requirements twice 2 weeks 
before Christmas to try to facilitate the class and make it a 
little bit better. As a result, the class continued to get 
lengthened and the students became very disinterested and very 
disheartened. Many of them--there were several that left from 
that class.
    Mrs. Capito. Thank you. I think all three of you have lined 
out, and I have heard also from my constituents who are air 
traffic controllers and I am proud of their service, the 
issues--less pay, more work, shorthandedness. I was a little 
alarmed when you mentioned--more than a little alarmed when you 
mentioned the reclassifying of the operational errors and how 
they have--what was acceptable at 12 is now acceptable at 25, 
the number of aircraft that you are dealing with every day. I 
guess my question to each one of you is how do we solve this 
problem? What is the answer? Is it higher pay? Is it better 
training?
    So I will give you a chance to give me a top two, each one 
of you. Thank you.
    Mr. Chapman. I will go first. The answer to each one of 
your questions is a collective bargaining agreement because 
each one of those elements is contained within the collective 
bargaining agreement, probably much more so for us than 
traditional occupations. Everything within the air traffic 
system, technology development, improvements, procedures, along 
with the labor issues, are all under the umbrella of the 
collective bargaining agreement. Without that nothing works.
    Mr. Wallace. Thank you. And I have to echo what Mr. Chapman 
says, that is first and foremost to resolving the problems. The 
collective bargaining agreement is the absolute foundation for 
resolving most of the issues. As far as the developmentals and 
their maybe unique situation with respect to training, we need 
to go back to the old tried and true method for training air 
traffic controllers. You have got an air traffic controller 
done in the same length of time that they are going to get it 
done with this functional training program, but you got it done 
with a lot of experience along the way.
    Mr. Davis. I actually have three if that is okay. The first 
one is we are very rule oriented. Clearly we live and die by 
the rules, and that is that is why the contract is so 
important. It is critical.
    The second one would be to decriminalize operational 
errors. What happens right now is if I make one mistake a year 
I will be fired. One.
    Mrs. Capito. Is that a new development or is that something 
that has always been that way?
    Mr. Davis. It has always been that way, but it is a 
disincentive to be honest about what is really going on. If I 
have three errors in less than 30 months, I can be terminated.
    Mrs. Capito. But you are not necessarily terminated.
    Mr. Davis. I have seen it.
    Mrs. Capito. There is probably some judgmental decision.
    Mr. Davis. Downgrades and separations and those things. At 
the facilities that are hurting the worst, there has to be some 
support for the traffic management initiatives to work a 
realistic amount of traffic. In 1981 after the strike, they set 
up a general aviation reservation system. They set up a slot 
program to recognize the fact that we can't continue handling 
the same level of traffic with a significantly reduced amount 
of people. We can't do it. We are going to hurt somebody.
    Mrs. Capito. All right. I thank you for your answers. Thank 
you for your service.
    Mr. Costello. The Chair thanks the gentlewoman and now 
recognizes the gentleman from Kansas, Mr. Moran.
    Mr. Moran. Mr. Chairman, thank you very much for holding 
this hearing and we often say that as a matter of pro forma, 
politeness I suppose. But in this instance I think it is 
especially important that Congress continue to be engaged in 
this issue. Every time we hear testimony, every report I have 
from visiting with air traffic controllers continues to outline 
the significant challenges that the air traffic control system 
faces, and I really do want to see this Committee, our 
Congress, and especially the administration realize what 
significant problems we face today and how much more difficult 
this becomes over time in the absence of resolution of staffing 
issues, which perhaps in large part relate to reaching an 
agreement in regard to collective bargaining.
    I appreciate your testimony here today. I think this issue 
is serious. I think it is one that affects lives. I have great 
regard for air traffic controllers who I think face tremendous 
stresses, challenges, and perform admirably under very 
difficult circumstances.
    So when I say thank you for holding the hearing I am 
sincere in that regard. I appreciate you and the Ranking Member 
making certain that this issue is not forgotten.
    I have just a couple of questions. Is there any evidence 
that the collective bargaining agreement process is on track? 
Is there any evidence that there is a desire to see this issue 
resolved? Are we still perhaps in a holding pattern?
    Mr. Chapman. I don't know that we would be the appropriate 
people to answer that question with detail. Obviously Mr. 
Forrey would be the person to take that question. From our 
knowledge out in the field, no. To be quite honest, there is no 
movement by the agency to make a sincere effort.
    Mr. Moran. Which I assume has an effect upon morale as far 
as retention and recruit many. Is that accurate?
    Mr. Chapman. It tells everybody there is no respect for 
them as employees is the clearest answer.
    Mr. Moran. Is there any place within the system that is a 
role model for recruitment and retention? Is there any place, 
any location geographically or any particular program that is 
working to recruit or retain air traffic controllers within the 
system?
    Mr. Davis. I can tell you in the past there was. There was 
in the late 1980s; there was a system set up where they were 
having trouble staffing 11 facilities. They rolled out a 
program called up-pay demonstration project to say, listen, 
this is going to be an extra pay incentive to go and commit 
yourself to solving the problem at those facilities, high-
density facilities, high cost of living areas. It lasted 5 
years and I responded to that. I went to L.A. As opposed to 
staying out where I was and became committed to solving the 
problem, and that was the reason.
    So I would say that is something that worked in the past 
that can work now. But I don't know any place I--if there is 
one I haven't heard about it.
    Mr. Moran. So the answer to my question is you have to look 
historically, nothing in the present.
    And then one of the features that is true in a 
congressional district like mine that is so rural is the 
prevalence of contract towers. Do you have any sense or 
knowledge about recruitment, retention or transfer of traffic 
controllers between the two systems? Are they better able to 
recruit/retain, or do they face the same challenges?
    Mr. Davis. Well, I would say I do have some experience with 
it. I was the representative for one of the facilities that was 
contracted out. So it converted one day with FAA. The next day 
it was a contractor. Those facilities that have been contracted 
out are the lowest level, the bottom level, or the bottom rung; 
so they are not as intense. They are not as----
    Mr. Moran. It is apples and oranges?
    Mr. Davis. I believe so.
    Mr. Moran. And finally, Mr. Chairman, I would ask your 
permission to submit a question in writing to the earlier panel 
for their response.
    Mr. Costello. Without objection.
    Mr. Moran. Again, Mr. Chairman, thank you for the 
opportunity.
    Mr. Costello. Thank you. Thanks to all of you for 
testifying. I know it has been a long day for you on a hearing 
that was supposed to start much earlier and was delayed because 
of votes on the floor.
    Let me just say, as I have said before and I will say again 
after hearing the testimony today from our first panel as well 
as the three of you gentlemen, I am very concerned about where 
we are today, about the staffing levels, about the ratio 
between certified controllers and new hires and trainees, the 
rate of attrition not only with the most experienced 
controllers. In my opening statement I mentioned in fiscal year 
2008 we have already seen 954 controllers leave. There is no 
question and there has been testimony in this room, every one 
involved in the air traffic control system recognizes that 
there is a major problem with fatigue. There is a major problem 
with morale, and that is a recipe for disaster in the future 
unless it is rectified and addressed immediately. 
Unfortunately, the FAA shares concerns, but there is little 
action, in my judgment, being taken to address these problems.
    Finally, I will say that--as I think and hope that the 
three of you know, that in H.R. 2881, in the legislation that 
we passed out of the House, we try to address some of these 
issues, not only the contract situation between the FAA and 
NATCA but in providing funds and additional things in the bill 
that we think will help with the current situation.
    But again we thank you for being here. I know you are not 
used to coming up and testifying before Congressional 
Committees and Subcommittees. You are union representatives. 
Your President, Mr. Forrey, who was on the earlier panel, they 
normally are the ones who are testifying and do a very good job 
in presenting the views. But it is good for this Committee and 
its Members to hear directly from those who are on the job and 
what you are seeing firsthand, what you are experiencing.
    So again we thank you for taking the time to offer your 
testimony here today. We wish you well and would ask that you 
continue to talk to your colleagues and anyone that you can and 
ask them to call on their United States Senators to move 
legislation that is pending in the Senate that passed the House 
with bipartisan support.
    Again, thank you, and that concludes the Subcommittees 
hearing. The Subcommittee stands adjourned.
    [Whereupon, at 6:04 p.m., the Subcommittee was adjourned.]
    [GRAPHIC] [TIFF OMITTED] 42947.013
    
    [GRAPHIC] [TIFF OMITTED] 42947.014
    
    [GRAPHIC] [TIFF OMITTED] 42947.015
    
    [GRAPHIC] [TIFF OMITTED] 42947.016
    
    [GRAPHIC] [TIFF OMITTED] 42947.017
    
    [GRAPHIC] [TIFF OMITTED] 42947.018
    
    [GRAPHIC] [TIFF OMITTED] 42947.019
    
    [GRAPHIC] [TIFF OMITTED] 42947.020
    
    [GRAPHIC] [TIFF OMITTED] 42947.021
    
    [GRAPHIC] [TIFF OMITTED] 42947.022
    
    [GRAPHIC] [TIFF OMITTED] 42947.023
    
    [GRAPHIC] [TIFF OMITTED] 42947.024
    
    [GRAPHIC] [TIFF OMITTED] 42947.025
    
    [GRAPHIC] [TIFF OMITTED] 42947.026
    
    [GRAPHIC] [TIFF OMITTED] 42947.027
    
    [GRAPHIC] [TIFF OMITTED] 42947.028
    
    [GRAPHIC] [TIFF OMITTED] 42947.029
    
    [GRAPHIC] [TIFF OMITTED] 42947.030
    
    [GRAPHIC] [TIFF OMITTED] 42947.031
    
    [GRAPHIC] [TIFF OMITTED] 42947.032
    
    [GRAPHIC] [TIFF OMITTED] 42947.033
    
    [GRAPHIC] [TIFF OMITTED] 42947.034
    
    [GRAPHIC] [TIFF OMITTED] 42947.035
    
    [GRAPHIC] [TIFF OMITTED] 42947.036
    
    [GRAPHIC] [TIFF OMITTED] 42947.037
    
    [GRAPHIC] [TIFF OMITTED] 42947.038
    
    [GRAPHIC] [TIFF OMITTED] 42947.039
    
    [GRAPHIC] [TIFF OMITTED] 42947.040
    
    [GRAPHIC] [TIFF OMITTED] 42947.041
    
    [GRAPHIC] [TIFF OMITTED] 42947.042
    
    [GRAPHIC] [TIFF OMITTED] 42947.043
    
    [GRAPHIC] [TIFF OMITTED] 42947.044
    
    [GRAPHIC] [TIFF OMITTED] 42947.045
    
    [GRAPHIC] [TIFF OMITTED] 42947.046
    
    [GRAPHIC] [TIFF OMITTED] 42947.047
    
    [GRAPHIC] [TIFF OMITTED] 42947.048
    
    [GRAPHIC] [TIFF OMITTED] 42947.049
    
    [GRAPHIC] [TIFF OMITTED] 42947.050
    
    [GRAPHIC] [TIFF OMITTED] 42947.051
    
    [GRAPHIC] [TIFF OMITTED] 42947.052
    
    [GRAPHIC] [TIFF OMITTED] 42947.053
    
    [GRAPHIC] [TIFF OMITTED] 42947.054
    
    [GRAPHIC] [TIFF OMITTED] 42947.055
    
    [GRAPHIC] [TIFF OMITTED] 42947.056
    
    [GRAPHIC] [TIFF OMITTED] 42947.057
    
    [GRAPHIC] [TIFF OMITTED] 42947.058
    
    [GRAPHIC] [TIFF OMITTED] 42947.059
    
    [GRAPHIC] [TIFF OMITTED] 42947.060
    
    [GRAPHIC] [TIFF OMITTED] 42947.061
    
    [GRAPHIC] [TIFF OMITTED] 42947.062
    
    [GRAPHIC] [TIFF OMITTED] 42947.063
    
    [GRAPHIC] [TIFF OMITTED] 42947.064
    
    [GRAPHIC] [TIFF OMITTED] 42947.065
    
    [GRAPHIC] [TIFF OMITTED] 42947.066
    
    [GRAPHIC] [TIFF OMITTED] 42947.067
    
    [GRAPHIC] [TIFF OMITTED] 42947.068
    
    [GRAPHIC] [TIFF OMITTED] 42947.069
    
    [GRAPHIC] [TIFF OMITTED] 42947.070
    
    [GRAPHIC] [TIFF OMITTED] 42947.071
    
    [GRAPHIC] [TIFF OMITTED] 42947.072
    
    [GRAPHIC] [TIFF OMITTED] 42947.073
    
    [GRAPHIC] [TIFF OMITTED] 42947.074
    
    [GRAPHIC] [TIFF OMITTED] 42947.075
    
    [GRAPHIC] [TIFF OMITTED] 42947.076
    
    [GRAPHIC] [TIFF OMITTED] 42947.077
    
    [GRAPHIC] [TIFF OMITTED] 42947.078
    
    [GRAPHIC] [TIFF OMITTED] 42947.079
    
    [GRAPHIC] [TIFF OMITTED] 42947.080
    
    [GRAPHIC] [TIFF OMITTED] 42947.081
    
    [GRAPHIC] [TIFF OMITTED] 42947.082
    
    [GRAPHIC] [TIFF OMITTED] 42947.083
    
    [GRAPHIC] [TIFF OMITTED] 42947.084
    
    [GRAPHIC] [TIFF OMITTED] 42947.085
    
    [GRAPHIC] [TIFF OMITTED] 42947.086
    
    [GRAPHIC] [TIFF OMITTED] 42947.087
    
    [GRAPHIC] [TIFF OMITTED] 42947.088
    
    [GRAPHIC] [TIFF OMITTED] 42947.089
    
    [GRAPHIC] [TIFF OMITTED] 42947.090
    
    [GRAPHIC] [TIFF OMITTED] 42947.091
    
    [GRAPHIC] [TIFF OMITTED] 42947.092
    
    [GRAPHIC] [TIFF OMITTED] 42947.093
    
    [GRAPHIC] [TIFF OMITTED] 42947.094
    
    [GRAPHIC] [TIFF OMITTED] 42947.095
    
    [GRAPHIC] [TIFF OMITTED] 42947.096
    
    [GRAPHIC] [TIFF OMITTED] 42947.097
    
    [GRAPHIC] [TIFF OMITTED] 42947.098
    
    [GRAPHIC] [TIFF OMITTED] 42947.099
    
    [GRAPHIC] [TIFF OMITTED] 42947.100
    
    [GRAPHIC] [TIFF OMITTED] 42947.101
    
    [GRAPHIC] [TIFF OMITTED] 42947.102
    
    [GRAPHIC] [TIFF OMITTED] 42947.103
    
    [GRAPHIC] [TIFF OMITTED] 42947.104
    
    [GRAPHIC] [TIFF OMITTED] 42947.105
    
    [GRAPHIC] [TIFF OMITTED] 42947.106
    
    [GRAPHIC] [TIFF OMITTED] 42947.107
    
    [GRAPHIC] [TIFF OMITTED] 42947.108
    
    [GRAPHIC] [TIFF OMITTED] 42947.109
    
    [GRAPHIC] [TIFF OMITTED] 42947.110
    
    [GRAPHIC] [TIFF OMITTED] 42947.111
    
    [GRAPHIC] [TIFF OMITTED] 42947.112
    
    [GRAPHIC] [TIFF OMITTED] 42947.113
    
    [GRAPHIC] [TIFF OMITTED] 42947.114
    
    [GRAPHIC] [TIFF OMITTED] 42947.115
    
    [GRAPHIC] [TIFF OMITTED] 42947.116
    
    [GRAPHIC] [TIFF OMITTED] 42947.117
    
    [GRAPHIC] [TIFF OMITTED] 42947.118
    
    [GRAPHIC] [TIFF OMITTED] 42947.119
    
    [GRAPHIC] [TIFF OMITTED] 42947.120
    
    [GRAPHIC] [TIFF OMITTED] 42947.121
    
    [GRAPHIC] [TIFF OMITTED] 42947.122
    
    [GRAPHIC] [TIFF OMITTED] 42947.123
    
    [GRAPHIC] [TIFF OMITTED] 42947.124
    
    [GRAPHIC] [TIFF OMITTED] 42947.125
    
    [GRAPHIC] [TIFF OMITTED] 42947.126
    
    [GRAPHIC] [TIFF OMITTED] 42947.127
    
    [GRAPHIC] [TIFF OMITTED] 42947.128
    
    [GRAPHIC] [TIFF OMITTED] 42947.129
    
    [GRAPHIC] [TIFF OMITTED] 42947.130
    
    [GRAPHIC] [TIFF OMITTED] 42947.131
    
    [GRAPHIC] [TIFF OMITTED] 42947.132
    
    [GRAPHIC] [TIFF OMITTED] 42947.133
    
    [GRAPHIC] [TIFF OMITTED] 42947.134
    
    [GRAPHIC] [TIFF OMITTED] 42947.135
    
    [GRAPHIC] [TIFF OMITTED] 42947.136
    
    [GRAPHIC] [TIFF OMITTED] 42947.137
    
    [GRAPHIC] [TIFF OMITTED] 42947.138
    
    [GRAPHIC] [TIFF OMITTED] 42947.139
    
    [GRAPHIC] [TIFF OMITTED] 42947.140
    
    [GRAPHIC] [TIFF OMITTED] 42947.141
    
    [GRAPHIC] [TIFF OMITTED] 42947.142
    
    [GRAPHIC] [TIFF OMITTED] 42947.143
    
    [GRAPHIC] [TIFF OMITTED] 42947.144
    
    [GRAPHIC] [TIFF OMITTED] 42947.145
    
    [GRAPHIC] [TIFF OMITTED] 42947.146
    
    [GRAPHIC] [TIFF OMITTED] 42947.147
    
    [GRAPHIC] [TIFF OMITTED] 42947.148
    
    [GRAPHIC] [TIFF OMITTED] 42947.149
    
                                    

</pre></body></html>
